APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(November 8, 2019). . . . . . . . . . . . App. 1
Appendix B Final Judgment in the United States
District Court for the Northern
District of Texas, Dallas Division
(February 6, 2019) . . . . . . . . . . . App. 29
Appendix C Memorandum Opinion and Order in
the United States District Court for
the Northern District of Texas, Dallas
Division
(February 6, 2019) . . . . . . . . . . . App. 31
Appendix D Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(August 1, 2017) . . . . . . . . . . . . . App. 38
Appendix E Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(August 27, 2015) . . . . . . . . . . . . App. 50
Appendix F Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(October 28, 2013) . . . . . . . . . . . . App. 70
Appendix G U.S. Const. amend. XIV . . . . . . . App. 89
42 U.S.C. § 1983 . . . . . . . . . . . . . App. 89
Fed. R. Civ. P. 56 . . . . . . . . . . . . App. 90

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10217
[Filed November 8, 2019]
___________________________________
VICKIE COOK, Individually and as )
Natural Mother to Deanna Cook;
)
N. W., a Minor, by and through
)
her Grandparent and Guardian
)
Vickie Cook; A. W., a Minor, by
)
and through her Grandparent and
)
Guardian Vickie Cook,
)
)
Plaintiffs - Appellants
)
)
v.
)
)
TONYITA HOPKINS; KIMBERLEY )
COLE; JOHNNYE WAKEFIELD;
)
YAMINAH SHANI MITCHELL;
)
JULIE MENCHACA, Officer; AMY
)
WILBURN, Officer; ANGELIA
)
HEROD-GRAHAM; CITY OF
)
DALLAS,
)
)
Defendants - Appellees )
___________________________________ )
VICKIE COOK, Individually and as )
Natural Mother to Deanna Cook;
)

App. 2
N. W., a Minor, by and through
her Grandparent and Guardian
Vickie Cook; A. W., a Minor, by and
through her Grandparent and
Guardian Vickie Cook; KARLETHA
COOK-GUNDY, Individually and as
Representative of the Estate of
Deanna Cook, Deceased,

)
)
)
)
)
)
)
)
)
Plaintiffs - Appellants
)
)
v.
)
)
CITY OF DALLAS; ANGELIA
)
HEROD-GRAHAM,
)
)
Defendants – Appellees )
___________________________________ )
Appeal from the United States District Court
for the Northern District of Texas
U.S.D.C. No. 3:12-CV-3788
______________________
Before STEWART, CLEMENT, and HO, Circuit
Judges.
PER CURIAM:*
This appeal arises from Deanna Cook’s 911 call to
report domestic violence, the Dallas Police

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 3
Department’s response to that call, and Deanna’s tragic
death at the hands of her abuser.
Deanna’s mother Vickie Cook, her two minor
daughters, and her sister Karletha Cook-Gundy (the
Independent Administrator of Deanna’s estate) sued
Defendants Tonyita Hopkins (“Hopkins”), Kimberley
Cole (“Cole”), and Johnnye Wakefield (“Wakefield”), all
of whom worked at the 911 call center on the day
Deanna died; Yaminah Shani Mitchell (“Mitchell”), the
police dispatcher made aware of Deanna’s 911 call;
Julie Menchaca and Amy Wilburn, the police officers
who responded to Deanna’s call that day (the
“Officers”); Angelia Herod-Graham (“Herod-Graham”),
who responded to Deanna’s mother’s 911 call two days
after Deanna’s death, when Plaintiffs discovered her
body (collectively, the “Individual Defendants”); and
the City of Dallas (the “City”), seeking damages
pursuant to (i) 42 U.S.C. § 1983, alleging violations of
Deanna’s Fourteenth Amendment rights to due process
and equal protection, and (ii) state-law tort statutes.
The district court granted the Individual Defendants’
and the City’s motions to dismiss in part and then
granted Defendants’ motions for summary judgment,
entering its final judgment on February 6, 2019. The
court also denied Plaintiffs’ request for additional
discovery against the City. We AFFIRM the district
court’s judgments.
I.
On Friday, August 17, 2012, at 10:54 a.m., Deanna,
a 32-year-old mother of two, called 911 to report that
she was being attacked in her home by her ex-husband.
Deanna had previously called the police to report her

App. 4
ex-husband’s domestic abuse and harassment, both
before they were divorced and after the divorce was
finalized. Hopkins, a 911 call-center employee with the
title of “Call Taker,” answered Deanna’s call that day.
Cole, the call-center supervisor, was not at her post at
the time, so Wakefield, a “Senior Call Taker,” assisted
Hopkins with handling and classifying Deanna’s call.
On the call, Deanna was “screaming at the top of
her lungs in fear, crying out for assistance,” and
“screaming help, please stop it” to her attacker.
Deanna did not provide her address to Hopkins.
Hopkins claims that because Deanna had called from
a cellphone, Hopkins could not immediately retrieve
Deanna’s address, so she enlisted Wakefield to help
find the latitude and longitude of Deanna’s location.
Nearly ten minutes after the call began, Hopkins
notified police dispatch, classifying the call as a “Major
Disturbance.” Hopkins added the comment “urgent!” to
her notify report. The line eventually went silent.
Wakefield instructed Hopkins to hang up the phone
and call Deanna back. The call went to voicemail.
Hopkins did not follow up to ensure that police
dispatch had actually sent officers to Deanna’s
residence.
Mitchell was the police dispatcher who received
Deanna’s location that day. She allowed police officers
to volunteer for the call, despite it being marked
“urgent.” Menchaca and Wilburn, City of Dallas police
officers, volunteered to go to Deanna’s residence. On
the way, the Officers stopped at 7-Eleven for bottles of
water. Approximately 50 minutes after Deanna called
911, the Officers arrived at Deanna’s home. They

App. 5
knocked on the door and had the dispatcher call
Deanna’s cellphone, which went to voicemail. They
avoided entering the home from the back entrance
because they heard dogs barking. When the Officers
didn’t get a response, they left the residence and noted
that the disturbance had been resolved.
Plaintiffs went to Deanna’s home two days later, on
Sunday, August 19, 2012, after Deanna failed to show
up for church. They noticed her two chihuahuas
barking and water leaking from her home. Her mother,
Vickie, then called 911. Herod-Graham answered
Vickie’s call. She told Vickie that no police officers
could help Vickie and her family enter Deanna’s house
unless Vickie called nearby prisons and hospitals first.
Plaintiffs then kicked in the patio door of the residence
and entered Deanna’s bedroom, where they found
Deanna deceased, her body partially in the bathtub.
Former Dallas Police Chief David Brown suspended
Hopkins, issued Cole a written reprimand, and fired
Herod-Graham. Under department policy, HerodGraham should not have asked Vickie to call prisons
and hospitals before sending the police to Deanna’s
address. Chief Brown and former Dallas Mayor Mike
Rawlings also allegedly commented on Deanna’s death
publicly. According to Plaintiffs, Chief Brown admitted
that, “[the 911 operator] obviously failed . . . and it cost
the life of Ms. Cook,” and Mayor Rawlings stated that,
“our safety net wasn’t there for her.”
Plaintiffs sued Defendants in federal court, bringing
§ 1983 claims under the Fourteenth Amendment’s Due
Process and Equal Protection clauses, as well as claims
under Texas’ negligence, gross negligence, bystander

App. 6
recovery, wrongful death, and survival laws. They later
filed a separate complaint in a separate suit against
Herod-Graham, the City, and various
telecommunications defendants (but the
telecommunications defendants were dismissed). The
district court agreed to consolidate the two cases in
2015.
The Individual Defendants all filed Rule 12(b)(6)
motions to dismiss for failure to state a plausible claim.
With the exception of Cole, against whom all of
Plaintiffs’ claims were dismissed,1 the district court
dismissed all of Plaintiffs’ claims against the Individual
Defendants except for their equal protection claims for
discrimination based on race, gender, socioeconomic
background, and status as a domestic-violence victim.2
The Individual Defendants, excluding (i) Cole and
1

Defendants correctly note that Plaintiffs do not adequately brief
Cole’s alleged liability under the Fourteenth Amendment. Their
briefing makes one off-hand reference to Cole’s role in “providing
discriminatory practices to Hopkins through training.”

2

The district court correctly noted that government employees
cannot request the dismissal of claims filed under the state statute
from which Plaintiffs’ state-law tort claims arose. See Tex. Civ.
Prac. & Rem. Code § 101.106(e); Hernandez v. City of Lubbock, 253
S.W.3d 750, 755 (Tex. App. 2007) (“We see nothing . . . construing
section 101.106(e) to provide for dismissal of an employee on the
motion of any but the governmental unit defendant.”). However,
once the “governmental unit” at issue has filed a motion to dismiss
those tort claims filed under § 101.106(e) against itself and its
employees, “the employees shall immediately be dismissed.” See
Tex. Civ. Prac. & Rem. Code § 101.106(e). Because the district
court granted the City’s motion to dismiss with respect to those
state-law tort claims, the court uniformly denied as moot Plaintiffs’
state-law tort claims against the Individual Defendants.

App. 7
(ii) Herod-Graham, who moved for summary judgment
separately, then moved for summary judgment based
on qualified immunity, which the district court
granted, finding that Plaintiffs had failed to raise any
genuine disputes of material fact as to whether they
had discriminated against Deanna in violation of the
Equal Protection Clause. The district court later
granted Herod-Graham’s motion for summary
judgment based on, inter alia, qualified immunity,
holding that Vickie’s equal protection rights had not
been violated.
The City moved to dismiss Plaintiffs’ claims in a
Rule 12(c) motion, which the district court granted in
part. The City also filed two Rule 12(b)(6) motions to
dismiss (which included leftover claims from the
consolidated cases). Finally, the City moved for
summary judgment in two separate instances. The
district court granted the City’s motions for summary
judgment on the municipal-liability claims based on the
proposition in City of Los Angeles v. Heller, 475 U.S.
796 (1986), that a municipality cannot be held liable if
plaintiffs cannot show that a constitutional deprivation
has occurred. Because the district court had already
held that none of the Individual Defendants had
violated Deanna’s or Vickie’s rights to equal protection,
the court held that Plaintiffs’ claims against the City
could not survive. The court also granted the City’s
motion for summary judgment on the state-law tort
claims. Finally, on separate occasions, the district court
denied Plaintiffs additional discovery.
As will be discussed below, Plaintiffs attempt to
appeal all of the district court’s decisions. We note that

App. 8
Plaintiffs fail to address or present arguments as to
some of these decisions, and consequently, we consider
those arguments forfeited. See United States v.
Thibodeaux, 211 F.3d 910, 912 (5th Cir. 2000) (“It has
long been the rule in this circuit that any issues not
briefed on appeal are waived.”); Yohney v. Collins, 985
F.2d 222, 224!25 (5th Cir. 1993) (one “abandon[s]
[one’s] arguments by failing to argue them in the body
of [one’s] brief”); Fed. R. App. P. 28(a)(8)(A) (the
argument in appellant’s brief “must contain . . .
appellant’s contentions and the reasons for them”).
II.
We review the district court’s dismissals of
complaints under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim de novo. Mowbray v.
Cameron County, 274 F.3d 269, 276 (5th Cir. 2001). “To
survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. at 678. In evaluating motions
to dismiss, we must view the well-pleaded facts in the
light most favorable to the plaintiff. Walker v.
Beaumont Indep. Sch. Dist., 938 F.3d 724, 735 (5th Cir.
2019); Iqbal, 556 U.S. at 678. And “[a]lthough for the
purposes of a motion to dismiss we must take all of the
factual allegations in the complaint as true, we ‘are not
bound to accept as true a legal conclusion couched as a

App. 9
factual allegation.’” Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 555).
We review the district court’s grants of summary
judgment de novo, applying the same standards as the
district court. Coleman v. United States, 912 F.3d 824,
828 (5th Cir. 2019). The court’s role is not “to weigh the
evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249
(1986). Summary judgment is proper “only if, viewing
the evidence in the light most favorable to the
nonmovant, ‘the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.’” Davenport v.
Edward D. Jones & Co., 891 F.3d 162, 167 (5th Cir.
2018) (quoting Fed. R. Civ. P. 56(a)); see Celotex Corp.
v. Catrett, 477 U.S. 317, 322 (1986). “[T]he mere
existence of some alleged factual dispute between the
parties will not defeat an otherwise properly supported
motion for summary judgment; the requirement is that
there be no genuine [dispute] of material fact.”
Anderson, 477 U.S. at 247–48. Further, we must
consider all evidence, “but may not make ‘credibility
assessments,’ which are the exclusive province of the
trier of fact.” La Day v. Catalyst Tech., Inc., 302 F.3d
474, 477 (5th Cir. 2002) (quoting Dibidale, Inc. v. Am.
Bank & Trust Co., 916 F.2d 300, 307–08 (5th
Cir.1990)). Although the moving party generally bears
the burden of demonstrating to the court that a
genuine issue for trial does not exist, a “qualified
immunity defense alters the usual summary judgment
burden of proof.” Brown v. Callahan, 623 F.3d 249, 253

App. 10
(5th Cir. 2010). The burden shifts to the non-movant to
show that qualified immunity does not apply. Id.
We review the district court’s denial of discovery for
abuse of discretion. JP Morgan Chase Bank, N.A. v.
DataTreasury Corp., 936 F.3d 251, 256 (5th Cir. 2019).
“A trial court enjoys wide discretion in determining the
scope and effect of discovery, and it is therefore
unusual to find an abuse of discretion in discovery
matters.” EEOC v. BDO USA, L.L.P., 876 F.3d 690, 698
(5th Cir. 2017) (cleaned up). When the trial court bases
its decision “on an erroneous view of the law,” it has
abused its discretion. Crosby v. La. Health Serv. &
Indem. Co., 647 F.3d 258, 261 (5th Cir. 2011). However,
“[e]ven if a district court abuses its discretion, the
reviewing court will not overturn its ruling unless it
substantially affects the rights of the appellant.” JP
Morgan, 936 F.3d at 256.
III.
A. Motions to Dismiss Plaintiffs’ Due Process
Claims3
Plaintiffs contend that the district court erred in
dismissing their due process claims brought against
Individual Defendants in their personal capacities4 and
3

We note that Plaintiffs’ due process claim pursuant to § 1983 in
its First Amended Complaint (including the telecommunications
defendants) against Herod-Graham was dismissed for failure to
allege facts that state a plausible claim. We agree with the district
court.

4

We also note that Plaintiffs’ complaint does not clearly state
whether suit was brought against the Individual Defendants in

App. 11
the City pursuant to 42 U.S.C. § 1983. The Due Process
clause of the Fourteenth Amendment provides that
“[n]o State shall . . . deprive any person of life, liberty,
or property, without due process of law.” U.S. Const.
amend. XIV, § 1. But the Supreme Court has held that
“the Due Process Clauses generally confer no
affirmative right to governmental aid, even where
such aid may be necessary to secure life, liberty, or
property interests.” DeShaney v. Winnebago Cty. Dep’t
of Soc. Servs., 489 U.S. 189, 196 (1989). And the
“failure to protect an individual against private
violence simply does not constitute a violation of the
Due Process Clause.” McClendon v. City of Columbia,
305 F.3d 314, 324 (5th Cir. 2002) (quoting DeShaney,
489 U.S. at 197)). However, in “certain limited
circumstances,” the state can form a “special
relationship” with an individual that “imposes upon the
state a constitutional duty to protect that individual
from dangers, including . . . private violence.” Id. at
324. Those “certain limited circumstances” are
instances where the state affirmatively exercises its
powers “to restrain the individual’s freedom to act on
his own behalf ‘through incarceration,
institutionalization, or other similar restraint of

their official capacities. The district court determined that the
Individual Defendants were sued in their personal capacities,
because a suit against an officer of the state in his or her official
capacity is no different than “pleading an action against an entity
of which an officer is an agent,” and Plaintiffs’ complaint already
named the City. Monell v. Dep’t of Soc. Servs. of City of N.Y., 436
U.S. 658, 690 n.55 (1978). We agree with the district court’s
reasoning.

App. 12
personal liberty.’” Id. (quoting DeShaney, 489 U.S. at
200).
Plaintiffs argue that because the City “promised
Deanna” that they would increase police patrols in her
neighborhood and arrest her abuser when she called,
the state created a “special relationship” between
Deanna and itself. However, it would be contrary to our
precedent and Supreme Court precedent to recognize a
“special relationship” here. The complaint does not
allege that any of the Defendants affirmatively acted to
restrain Deanna’s personal liberty in a similar way to
incarceration or institutionalization. In Beltran v. City
of El Paso, this court held that a plaintiff grandmother
whose granddaughter was killed by her father, a
domestic abuser, did not show that the state had
created a “special relationship” where the 911 operator
who took the granddaughter’s call on the date she was
murdered informed the granddaughter that the police
“would be sent out” but “[n]o police units immediately
responded.” 367 F.3d 299, 302 (5th Cir. 2004). There,
the grandmother alleged that her granddaughter had
relied on “falsely promised police services . . . to her
detriment.” Id. at 307. Further, the 911 operator in
Beltran told the granddaughter to lock herself in her
bathroom to avoid her father, which the grandmother
alleged was a restraint on personal liberty. Id. The
facts here involve less restraint on liberty than those in
Beltran, where the court found no “special relationship”
existed. Id. at 307!08. First, the alleged “promise” of
additional police services and arrest of Deanna’s exhusband is removed in time from Deanna’s death.
Second, the 911 call-center employees did not tell
Deanna to remain in her home on the day of her death,

App. 13
much less tell her to barricade herself in the bathroom
to avoid her attacker. There is simply no allegation in
the complaint that the Defendants here restrained
Deanna’s liberty sufficiently to show that a “special
relationship” existed.
It’s true that Deanna might have a viable claim for
violation of her due process rights if this circuit
recognized the “state-created danger theory,” which can
make the state liable under § 1983 if “it created or
exacerbated the danger” of private violence against an
individual. Bustos v. Martini Club Inc., 599 F.3d 458,
466 (5th Cir. 2010). Plaintiffs rely heavily on an out-ofcircuit opinion, Okin v. Village of Cornwall-on-Hudson
Police Department, in which the Second Circuit held
that the state-created danger theory gave rise to a
substantive due process violation where “police conduct
. . . encourage[d] a private citizen to engage in domestic
violence, by fostering the belief that his intentionally
violent behavior [would] not be confronted by arrest,
punishment, or police interference.” 577 F.3d 415, 437
(2d Cir. 2009). But, as the district court explained, this
circuit does not recognize the state-created danger
theory, and we decline to do so today, despite Plaintiffs’
urging that “[t]his is that case.” See Beltran, 367 F.3d
at 307 (citing McClendon, 305 F.3d at 327!33) (“This
court has consistently refused to recognize a ‘statecreated danger’ theory of § 1983 liability even where
the question of the theory’s viability has been squarely
presented.”); Doe v. Columbia-Brazoria Indep. Sch.
Dist., 855 F.3d 681, 688 (5th Cir. 2017) (“[P]anels [in
this circuit] have repeatedly noted the unavailability of
the [state-created danger] theory.”) (cleaned up). In

App. 14
sum, the district court did not err in dismissing
Plaintiffs’ due process claims against Defendants.
B. Motions for Summary Judgment
i. Equal Protection Claims: Individual Defendants’
Qualified Immunity
Plaintiffs argue that the district court erred in
granting summary judgment in favor of the Individual
Defendants on Plaintiffs’ § 1983 equal-protection
claims based on discrimination against Deanna for her
race, gender, socioeconomic background, and status as
a domestic-violence victim. Plaintiffs contend that, in
determining whether the Individual Defendants were
entitled to qualified immunity on these claims, the
district court erred by allegedly “weighing the witness’
credibility” and ignoring “material fact disputes
indicating Plaintiffs were treated differently from other
similarly situated individuals.”
“To establish an entitlement to qualified immunity,
a government official must first show that the conduct
occurred while he was acting in his official capacity and
within the scope of his discretionary authority.”
Beltran, 396 F.3d at 303. A two-pronged inquiry then
applies in a qualified-immunity analysis: “First, the
court must determine whether the plaintiff has alleged
a violation of a clearly established federal
constitutional or statutory right. Second, the court
must determine whether the official’s conduct was
objectively reasonable in light of the clearly established
legal rules at the time of the alleged violation.” Id.
The Equal Protection Clause of the Fourteenth
Amendment provides that “[n]o State shall . . . deny to

App. 15
any person within its jurisdiction the equal protection
of the laws.” U.S. Const. amend. XIV, § 1. Generally, to
state a claim under the Equal Protection Clause, a
§ 1983 plaintiff must allege “that [(1) she] received
treatment different from that received by similarly
situated individuals and that [(2)] the unequal
treatment stemmed from a discriminatory intent.”
Fennell v. Marion Ind. Sch. Dist., 804 F.3d 398, 412
(5th Cir. 2015) (race-based equal protection claim); see
Gibson v. Tex. Dep’t of Ins., 700 F.3d 227, 238 (5th Cir.
2012) (equal protection claim alleging discrimination
against a protected class). Panels in this circuit have
recognized that the “Equal Protection Clause should
not be used to make an end-run around the DeShaney
principle that there is no constitutional right to state
protection for acts carried out by a private actor.”
Beltran, 396 F.3d at 304; see Kelley v. City of Wake
Village, 264 F. App’x 437, 442 (5th Cir. 2008) (per
curiam). But a governmental entity providing
protective services “may not, of course, selectively deny
its [] services to certain disfavored minorities without
violating the Equal Protection Clause.” DeShaney, 489
U.S. at 197 n.3.
In Shipp v. McMahon, this court adopted “a
coherent approach for courts to review Equal
Protection claims pertaining to law enforcement’s
practices, policies, and customs toward domestic
assault cases.” 234 F.3d 907, 914 (5th Cir. 2000),
overruled in part on other grounds by McClendon, 305
F.3d at 328!29. To sustain a gender-based equal
protection challenge under our precedent, a plaintiff
must show “(1) the existence of a policy, practice, or
custom of [government officials] to provide less

App. 16
protection to victims of domestic assault than to
victims of other assaults; (2) that discrimination
against women was a motivating factor; and (3) that
the plaintiff was injured by the policy, custom or
practice.” Id.; see Beltran, 367 F.3d at 304!05.
“[O]fficials will be liable only for those policies,
practices, customs, and conduct that are the product of
invidious discrimination.” Shipp, 234 F.3d at 914.
So, in considering qualified immunity here, our
analysis turns on the first prong of a qualified
immunity inquiry: Have Plaintiffs raised a fact dispute
as to whether the Individual Defendants intentionally
discriminated against Deanna and Vickie and treated
them differently? And, with respect to the claims based
on gender and status as a domestic-violence victim,
were Plaintiffs injured by an existing policy, practice,
or custom to provide lesser protections to victims of
domestic assault, which was motivated by
discrimination against women? (Defendants admit that
it “was clearly established at the time of Deanna’s and
Vickie’s [911] calls that the Fourteenth Amendment’s
Equal Protection Clause prohibited intentional
discrimination in the provision of police protective
services.”)
We first note that Plaintiffs conflate our Shipp
equal protection analysis with respect to their genderand status as a domestic-violence victim-based claims
with the equal protection analysis that this court
conducts with respect to race- and socioeconomic-based
equal protection claims. For example, Plaintiffs allege
that the City has an “Ignore and Delay strategy as it
relates to victims like Deanna,” presumably meaning

App. 17
“female domestic violence victims, minorities[,] and
residents of neighborhoods such as Deanna’s.”5
Accordingly, here, we will separate our Shipp and raceand socioeconomic-based equal protection analyses.
We agree with the district court in its order
granting Herod-Graham’s motion for summary
judgment that Plaintiffs, for the purposes of our Shipp
analysis, have “produce[d] evidence sufficient to [raise
a material-fact dispute] that the City, at the time of the
incident at hand, had a custom of providing less
protection in 911 call taking on the bases of . . .
[gender] and status as a domestic violence victim.”
Considering the record in the light most favorable to
Plaintiffs, we recognize that the City made changes to
its policies regarding response procedures for domestic
violence complaints in the years following Deanna’s
5

Plaintiffs claim this strategy is demonstrated in the City’s
“(i) allowing officers to ‘volunteer’ to investigate domestic violence
disturbances or purposefully delay responding to domestic violence
victims; (ii) providing a lesser degree of protection to female
domestic violence victims than to victims of other assaults through
not providing information required by Art. 5.04(a) of the Texas
Code of Criminal Procedure; (iii) providing less protection to
female victims in minority-race neighborhoods than to victims in
other neighborhoods; (iv) giving lower priority to domestic violence
calls than to non-domestic violence calls; (v) arriving at Deanna’s
residence at a time (more than 50 minutes after her [911] call)
considerably in excess of the time officers respond to similarly
situated persons in affluent neighborhoods without a
predominantly minority population; (vi) giving less police
assistance to women victims; (vii) prohibiting officers from driving
fast with lights and sirens and making emergency residential
entries for domestic violence claims; and (viii) allowing officers to
stop for personal purchases en route to ‘urgent-flagged’ domestic
violence calls.”

App. 18
death; the fact that public officials acknowledged that
the City’s policies were not working to protect victims
of domestic violence; the evidence of misplaced
paperwork and domestic violence cases that went
unattended to by law enforcement; and the disciplinary
actions against the call-center employees. However, on
the second prong of our Shipp analysis, we find that
Plaintiffs have failed to raise a genuine dispute of
material fact as to whether discrimination against
women was a motivating factor. A “discriminatory
purpose” is “more than intent as volition or intent as
aware of consequences. It implies that the
decisionmaker . . . selected or reaffirmed a course of
action at least in part ‘because of,’ not merely ‘in spite
of’ its adverse effects upon an identifiable group.”
Kelley, 264 F. App’x at 443 (quoting Personnel Adm’r v.
Feeney, 442 U.S. 256, 279 (1979)). Further, “it is a
truism that under current Equal Protection Clause
jurisprudence, a showing of disproportionate impact
alone is not enough to establish a constitutional
violation . . . . The mere existence of disparate
treatment—even widely disparate treatment—does not
furnish adequate basis that discrimination was
impermissibly motivated.” Id. (quoting Soto v. Flores,
103 F.3d 1056, 1067 (1st Cir. 1997)). Here, although
there may have been customs or policies in place that
disproportionately affected female victims of domestic
violence in a negative way, Plaintiffs have not shown
that these customs or policies were motivated by a
desire to discriminate against women. If anything, the
actions and statements of the City’s officials regarding
domestic violence following Deanna’s death
demonstrate the opposite of intentional discrimination.
Thus, we find that Plaintiffs do not raise material-fact

App. 19
disputes as to whether Deanna’s and Vickie’s equal
protection rights were violated based on their gender or
Deanna’s status as a domestic-violence victim.
Plaintiffs stress in their reply brief that the district
court did not address whether there was a genuine
dispute of material fact as to whether Deanna and
Vickie were treated differently than similarly-situated
individuals. However, this analysis applies only to
Plaintiffs’ race- and socioeconomic-based equal
protection claims. (As discussed above, the Shipp
analysis applies to their gender- and status as a
domestic-violence victim-based claims.) Most
importantly, Plaintiffs fail to recognize that, to survive
summary judgment on their equal protection
allegations based on their race or socioeconomic class
would require raising a material-fact dispute as to
whether Deanna and Vickie were “intentionally treated
differently from others similarly situated.” Gibson, 700
F.3d at 238 (emphasis added). So, now, with respect to
Plaintiffs’ race- and socioeconomic-based § 1983 claims,
we consider (i) the foregoing “similarly situated” equal
protection inquiry, and (ii) “if a state actor intentionally
discriminated against [Plaintiffs] because of [their]
membership in a protected class.” Id. (emphasis
added).
Plaintiffs’ race-based claim seems to be premised on
the conduct of April Sims, a 911 call-center employee
who posted racist comments to her social media
account regarding the 911 calls she received. As
egregious as Sims’s comments were, we do not see how
Sims’s conduct has any link to Plaintiffs’ proposition
that Deanna and Vickie were intentionally

App. 20
discriminated against and intentionally treated
differently because of their race. Instead, the evidence
in the record shows that Sims was an outlier, who was
deservedly fired from her position. Relatedly, Plaintiffs’
socioeconomic-based claim seems to be based on their
argument that private citizens who pay for security
alarm systems receive higher priority than citizens in
poorer neighborhoods (i.e., faster police responses and
the like). But there is no fact dispute here, because
there is no “fact” to dispute: Plaintiffs rely on Cole’s
statement that she didn’t “have [] information” as to
whether that was true.
Plaintiffs make the same type of argument with
respect to their claims that the Officers responded to
calls from similarly-situated Caucasian women or calls
from affluent neighborhoods more quickly. For
example, Plaintiffs characterize an “I do not remember”
or “I’m not sure” answer as an admission from the
Officers. And on both claims, Plaintiffs consistently
argue that a fact dispute regarding Individual
Defendants’ intentional discrimination against Deanna
and Vickie exists because of the “evidence” that
Individual Defendants “could recognize traits of”
Deanna and Vickie from the call, and that the district
court made improper credibility assessments in
considering the record with respect to this assertion.
We recognize that the district court considered
Individual Defendants’ testimony that they did not
know of Deanna’s (or, where applicable, Vickie’s) race
or recognize the area in which she resided. But
summary judgment requires that a party “asserting
that a fact . . . is genuinely disputed must support the
assertion by: (A) citing to particular parts of materials

App. 21
in the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those made for
purposes of the motion only), admissions, interrogatory
answers, or other materials; or (B) showing that the
materials cited do not establish the absence . . . of a
genuine dispute.” Fed. R. Civ. P. 56(c)(1). And here,
Plaintiffs fail to identify evidence in the record
disputing the fact that Individual Defendants were not
aware of Deanna’s or Vickie’s race or socioeconomic
background.
Thus, Plaintiffs have not satisfied prong one of our
qualified-immunity analysis regarding summary
judgment, which would require them to show a genuine
dispute of material fact as to whether Individual
Defendants violated Deanna’s or Vickie’s equal
protection rights. The district court did not err. We also
find that the district court did not make improper
credibility assessments in considering the evidence in
the record.
ii. Equal Protection Claim: The City
Plaintiffs contend that the district court erred in
granting summary judgment in favor of the City with
respect to their municipal-liability claims. The district
court granted the City’s motions for summary
judgment based on the proposition in City of Los
Angeles v. Heller that a municipality cannot be held
liable if Plaintiffs cannot show that a constitutional
deprivation has occurred. Heller, 475 U.S. at 799.
Specifically, the City argues that Heller holds that, “if
[a City employee] inflicted no constitutional injury on
[the Plaintiffs], it is inconceivable that [the City] could

App. 22
be liable.” Id. The district court agreed with the City,
noting that in a footnote in a published Fifth Circuit
case, the panel wrote that “Heller, however, held only
that if no claim is stated against officials—if plaintiff
does not show any violation of his constitutional
rights—then there exists no liability to pass through to
the [municipality].” Brown v. Lyford, 243 F.3d 185, 191
n.18 (5th Cir. 2001). Plaintiffs conversely argue that
this circuit has not yet confronted the question of
“whether municipal liability is available if no
individual liability exists.” See Carnaby v. City of
Houston, 636 F.3d 183, 189 (5th Cir. 2011). We agree
with the district court that Plaintiffs are mistaken as
to the City’s argument: “The City does not argue that
the law requires that once all personal capacity claims
are dismissed, the municipal-liability claims must also
be dismissed.” Instead, the City argues that because we
have “unambiguously determined” that the Individual
Defendants did not violate Deanna’s or Vickie’s equal
protection rights, we must affirm the City’s motion for
summary judgment under Heller as no constitutional
deprivation occurred. In sum, we agree with the district
court and the City that the Brown v. Lyford footnote is
sufficient to support our holding here that, under
Heller, because we have found no constitutional
violations on the part of the Individual Defendants, the
City cannot be subjected to municipal liability. See
Brown, 243 F.3d at 191 n.18; see also Cardenas v. San
Antonio Police Dep’t, 417 F. App’x 401, 402 (5th Cir.
2011) (per curiam) (holding that, because “individual
defendants did not inflict any constitutional harm on
[plaintiff], the district court properly granted summary
judgment for the City”); Blair v. City of Dallas, 666 F.
App’x 337, 341 (5th Cir. 2016) (per curiam) (noting that

App. 23
Heller holds that “there cannot be municipal liability
under § 1983 absent an underlying constitutional
violation”).
C. “Class of One” Equal Protection Claims
Plaintiffs also contest the district court’s dismissal
of their “alternative” equal protection claim: That the
Individual Defendants and the City discriminated
against Deanna in violation of her constitutional rights
to equal protection because of their “disdain for her as
a recurrent domestic violence caller.” Plaintiffs here
could bring a “class of one” equal protection claim if
they “allege[d] that [Deanna] [had] been intentionally
treated differently from others similarly situated and
that there [was] no rational basis for the difference in
treatment.” Village of Willowbrook v. Olech, 528 U.S.
562, 564 (2000). The district court held below that
Plaintiffs failed to state a claim that Defendants
violated Deanna’s equal protection rights as a “class of
one” because their complaint merely alleged Deanna
was a member of one of the classes identified (i.e., a
class based on her race, gender, socioeconomic status,
and status as a domestic-violence victim), rather than
alleging she was a member of a “class of one.” We agree
with the district court that Plaintiffs did not
sufficiently plead the “class of one” theory in their
complaint. See Fed. R. Civ. P. 8(d) (“Each allegation
must be simple, concise, and direct.”).
The district court noted that it did not grant
Plaintiffs leave to amend on the “class of one” issue
because they did not “demonstrate how a fourth round
of pleadings [would] correct the aforementioned
deficiencies because facts do not show that defendants

App. 24
acted in derogation of [Deanna’s] rights as an entity
unto herself.” Assuming arguendo that Plaintiffs did
plead their “class of one” theory appropriately, this
court has held that a plaintiff alleging he or she is a
“class of one” must “present evidence that the
defendant deliberately sought to deprive him [or her] of
the equal protection of the laws for reasons of a
personal nature unrelated to the duties of the
defendant’s position.” Kelley, 264 F. App’x at 444
(emphasis added). In Kelley, the panel noted that the
plaintiff victim of domestic violence was not denied her
equal protection rights as a “class of one” because she
could not provide evidence that the police department
and 911- response department deliberately sought to
deprive her of equal protection under the law. Id. Like
the plaintiff in Kelley, Plaintiffs here do not dispute
that the Individual Defendants and the City
consistently responded to Deanna’s past 911 calls. Id.
Further, the plaintiff in Kelley was allegedly subjected
to police officers’ “inappropriate comments,” which the
panel in that case found was not enough to survive the
defendant police officers’ motion for summary
judgment. Id. Here, the only defendant who had
contact with Deanna is Hopkins. And the only fact that
could possibly support an argument that Hopkins
“singled out” Deanna is the lag in time between when
Hopkins answered Deanna’s call and when she notified
police dispatch of Deanna’s emergency. But in light of
Kelley, this is clearly not enough to allege a “class of
one” equal protection claim. And most importantly,
there is no indication that Hopkins’ actions were
deliberate against Deanna herself.

App. 25
D. State-Law Tort Claims
As noted above, the district court denied as moot
Plaintiffs’ state-law tort claims against the Individual
Defendants, and the state-law tort claims against the
Individual Defendants and the City from the original
complaint were dismissed by the district court
pursuant to Fed. R. Civ. P. 12(c). See supra note 2.
However, Plaintiffs’ tort claims against the City
regarding Vickie’s 911 call on August 19, 2012, were
not addressed until the City moved for summary
judgment on this issue. Plaintiffs dispute the district
court’s grant of summary judgment in favor of the City
on the state-law tort claims only with respect to
Vickie’s 911 call in their briefing, so we consider their
other arguments below as to the tort claims forfeited.
Plaintiffs argue that the district court erred in
granting summary judgment in favor of the City on the
state-law tort claims arising from Herod-Graham’s
conduct on August 19, 2012, i.e., two days after
Deanna’s death and the day her family discovered her
body. The district court held that the City was entitled
to governmental immunity6 as to Plaintiffs’ tort claims
6

The district court held that the City was entitled to “sovereign
immunity” under Texas law. We recognize that the district court
was referring to “governmental immunity” under Texas law here.
See Wichita Falls State Hospital v. Taylor, 106 S.W.3d 692, 694 n.3
(Tex. 2003) (“Courts often use the terms sovereign immunity and
governmental immunity interchangeably. However, they involve
two distinct concepts. Sovereign immunity refers to the State’s
immunity from suit and liability. In addition to protecting the
State from liability, it also protects the various divisions of state
government, including agencies, boards, hospitals, and
universities. Governmental immunity, on the other hand, protects

App. 26
of negligent infliction of emotional distress, intentional
infliction of emotional distress, and common-law
bystander claims. See Gipson v. City of Dallas, 247
S.W.3d 465, 469 (Tex. App. 2008) (“Municipal
corporations have traditionally been afforded some
degree of governmental immunity for governmental
functions, unless that immunity is waived. The
operation of an emergency ambulance service is a
governmental function.”). Plaintiffs contend that the
“non-delivery of medical services to [Plaintiffs] on
August 19, 2012 was proprietary in nature or a mixture
of functions.” See Tooke v. City of Mexia, 197 S.W.3d
325, 343 (Tex. 2006) (“A municipality is not immune
from suit for torts committed in the performance of its
proprietary functions, as it is for torts committed in the
performance of its governmental functions.”). Plaintiffs
state that “911 is not a part of the police,” but rather,
“is a separate civilian department.” But they identify
no evidence to support that contention. Plaintiffs
further state that “EMT assistance is a proprietary
function.”
We agree with the district court that this argument
is misguided. Texas law explicitly states that police and
ambulance (i.e., EMT) services are governmental
functions. Tex. Civ. Prac. & Rem. Code
§ 101.0215(a)(1), (18). The district court was correct to
grant the City’s motion for summary judgment with
respect to the relevant state-law tort claims.

political subdivisions of the State, including counties, cities, and
school districts.”).

App. 27
E. Discovery7
Plaintiffs argue that the district court abused its
discretion in denying their “Emergency Motion to
Continue the City’s Motion for Summary Judgment” in
response to the City’s second motion for summary
judgment. In the motion, Plaintiffs requested
additional discovery (namely, depositions of City
officials) and a continuance to help “prove the City’s
customs and practices of discrimination against
domestic violence victims such as Deanna, the City’s
failure to train, supervise and discipline and
demonstrate how these practices were the moving
forces behind the treatment Plaintiffs received from the
Individual Defendants.” The district court denied
Plaintiffs’ request on the basis that the City’s motion
for summary judgment was premised upon a pure issue
of law—i.e., “whether the City can be held liable under
42 U.S.C. § 1983 after a court has determined that all
the defendant city employees did not commit
constitutional violations”—and thus, additional
discovery would be futile. The district court did not
abuse its discretion in denying Plaintiffs’ motion here.
The court correctly noted that additional discovery
could be warranted if Plaintiffs’ legal arguments
turned out to be correct. But because the City’s motion
for summary judgment did not raise any issues of fact
and turned on a pure issue of law, additional discovery

7

We consider Plaintiffs’ assertion that the district court abused its
discretion in denying Plaintiffs’ “Emergency Motion for Discovery
Preservation and for Leave of Court to Conduct Discovery” (filed
on October 19, 2012) forfeited because the Plaintiffs fail to
adequately brief the issue.

App. 28
was not necessary at that time. See Hunt v. Johnson,
90 F. App’x 702, 704 (5th Cir. 2004) (citing Williams v.
Phillips Petroleum Co., 23 F.3d 930, 937 (5th Cir.
1994)).
IV.
For the foregoing reasons, we AFFIRM the district
court’s judgments with respect to the decisions on
appeal in full.

App. 29

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:12-CV-3788-N
[Filed February 6, 2019]
_______________________
VICKIE COOK, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF DALLAS, )
)
Defendant.
)
_______________________ )
FINAL JUDGMENT
By separate Order dated October 14, 2015, the
Court dismissed all of Plaintiff’ state-law claims
against Defendant Angelia Herod-Graham, as well as
Plaintiffs’ due process claims against both
Herod-Graham and Defendant the City of Dallas
(“City”) [163]. By separate Order dated August 1, 2017,
the Court granted summary judgment for
Herod-Graham as to Plaintiffs’ equal protection claims
[216]. After these orders, Plaintiffs’ only remaining
claims were their equal protection claims and state-law

App. 30
claims against the City. By separate Order of this same
date, the Court grants summary judgment for the City
as to those claims. It is, therefore, ordered that
Plaintiffs’ claims against the City are dismissed with
prejudice. Court costs are taxed against Plaintiffs. All
relief not expressly granted is denied. This is a final
judgment.
Signed February 6, 2019.
/s/David C. Godbey
David C. Godbey
United States District Judge

FINAL JUDGMENT – SOLO PAGE

App. 31

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:12-CV-3788-N
[Filed February 6, 2019]
_______________________
VICKIE COOK, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF DALLAS, )
)
Defendant.
)
_______________________ )
MEMORANDUM OPINION AND ORDER
This Memorandum Opinion and Order addresses
Defendant the City of Dallas’s (“City”) motion for
summary judgment. [230]. For the reasons set forth
below, the Court grants the City’s motion.
I. ORIGINS OF THE DISPUTE
The Court is no stranger to the facts underlying this
case. It has detailed the story of Deanna Cook and her
family on several occasions. See, e.g., August 1, 2017
Order 1-3, [216] (“MSJ Order”). Only two sets of claims

App. 32
remain in this dispute: (1) Plaintiffs’ municipality
liability claims against the City; and (2) Plaintiffs’
various tort claims against the City. The City now
moves for summary judgment on both of these claims.
II. LEGAL STANDARD FOR SUMMARY JUDGMENT
Courts “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247
(1986). In making this determination, courts must view
all evidence and draw all reasonable inferences in the
light most favorable to the party opposing the motion.
United States v. Diebold, Inc., 369 U.S. 654, 655 (1962).
The moving party bears the initial burden of informing
the court of the basis for its belief that there is no
genuine issue for trial. Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986).
When a party bears the burden of proof on an issue,
she “must establish beyond peradventure all of the
essential elements of the claim or defense to warrant
judgment in [her] favor.” Fontenot v. Upjohn Co., 780
F.2d 1190, 1194 (5th Cir. 1986) (emphasis omitted).
When the nonmovant bears the burden of proof, the
movant may demonstrate entitlement to summary
judgment by either (1) submitting evidence that
negates the existence of an essential element of the
nonmovant’s claim or affirmative defense, or
(2) arguing that there is no evidence to support an
essential element of the nonmovant’s claim or
affirmative defense. Celotex, 477 U.S. at 322–25.

App. 33
Once the movant has made the required showing,
the burden shifts to the nonmovant to establish that
there is a genuine issue of material fact such that a
reasonable jury might return a verdict in its favor.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586–87 (1986). Moreover, “[c]onclusory
allegations, speculation, and unsubstantiated
assertions” will not suffice to satisfy the nonmovant’s
burden. Douglass v. United Servs. Auto. Ass’n, 79 F.3d
1415, 1429 (5th Cir. 1996) (en banc). Indeed, factual
controversies are resolved in favor of the nonmoving
party “‘only when an actual controversy exists, that is,
when both parties have submitted evidence of
contradictory facts.’” Olabisiomotosho v. City of
Houston, 185 F.3d 521, 525 (5th Cir. 1999) (quoting
McCallum Highlands, Ltd. v. Washington Capital Dus,
Inc., 66 F.3d 89, 92 (5th Cir. 1995)).
III. THE COURT GRANTS DEFENDANTS’ MOTIONS
FOR SUMMARY JUDGMENT
A. Plaintiffs’ Municipal Liability Claim Fails
Because There is No Underlying
Constitutional Violation
Plaintiffs’ allege that the City has a custom of
discriminating in the provision of 9-1-1 services on the
basis of “race, gender, socioeconomic, locality, and
domestic violence classifications” that amounts to
municipal liability under section 1983. Pls.’ Br. in
Supp. of Resp. to City of Dallas’s Mot. for Summ. J. 21
[233] (“Resp.”). For this claim to succeed, Plaintiffs
must show that: “(1) an official policy, (2) promulgated
by [a] municipal policymaker (3) was the moving force
behind the violation of a constitutional right.” Peterson

App. 34
v. City of Fort Worth, 588 F.3d 838, 847 (5th Cir. 2009).
Importantly, “if the plaintiff does not show any
violation of his constitutional rights then there exists
no liability to pass through to the [municipality].”
Brown v. Lyford, 243 F.3d 185, 191 n.18 (5th Cir. 2001)
(citing City of L.A. v. Heller, 475 U.S. 796, 799 (1986)).
Even if all of Plaintiffs’ allegations about the City’s
policies and customs were true, this Court has already
determined that Plaintiffs suffered no underlying
constitutional violation. Indeed, by previous Order, the
Court held that it is beyond reasonable dispute that
9-1-1 dispatcher Angelia Herod-Graham did not
discriminate or act with the intent to discriminate
against Plaintiffs. MSJ Order at 6-10. This was the
precise issue the Court wrestled with earlier in this
litigation. March 15, 2016 Order 8, [175]. It held that
Heller applied to block the Plaintiffs’ claims against the
City when all of the claims against individual
defendants were dismissed at the motion-to-dismiss or
summary judgment stage for lack of evidence
establishing a constitutional violation. Id. The Court
sees no reason to change course now. Accordingly,
because there was no underlying constitutional
violation, the Court holds the City cannot be held liable
under section 1983.
B. Plaintiffs’ Various Tort Claims Fail
The Court agrees with the City and construes the
various state law tort claims Plaintiffs’ raise in their
complaint as: negligent infliction of emotional distress
(“NIED”), intentional infliction of emotional distress
(“IIED”), section 1983 bystander claims, and common
law bystander claims. Each of these claims fails.

App. 35
Primarily, the City has sovereign immunity that
shields it from any of Plaintiffs’ tort claims. Plaintiffs
first argue that the City lacks this protection because
it was not acting in a purely governmental function, as
required by Texas law. Resp. at 43. The Court
disagrees. The Texas Civil Practice and Remedies Code
and Texas case law explicitly state that police and
ambulance services are governmental Functions. TEX.
CIV. PRACTICE AND REM. CODE §101.0215(a)(1), (18);
Gipson v. City of Dallas, 247 SW.3d 465, 469 (Tex. App.
— Dallas 2008, pet. denied). The Court further holds
that the City retained this immunity under the Texas
Tort Claims Act (“TTCA”). Section 101.021(2) of the
TTCA strips a municipality of its immunity for claims
caused by a condition or use of tangible property.
Plaintiffs argue that this section applies here because
Herod-Graham used the City’s Incident Editor,
Premise History computer databases, and telephone
equipment. Resp. at 44-45. But for section 101.021(2)
to apply, the use of the City’s property must be the
proximate cause of the injury. City of Dallas v.
Sanchez, 494 S.W.3d 722, 726 (Tex. 2016). This
requires:
both “cause in fact and foreseeability.” For a
condition of property to be a cause in fact, the
condition must “serve as a ‘substantial factor in
causing the injury . . . .’” When a condition or use of
property merely furnishes a circumstance “that
makes the injury possible,” the condition or use is
not a substantial factor in causing the injury. To be
a substantial factor, the condition or use of the
property “must actually have caused the injury.”
“This nexus requires more than mere involvement

App. 36
of the property . . . .” Thus, the use of property that
simply hinders or delays treatment does not
“actually cause the injury” and does not constitute
proximate cause of an injury.
Id. (citations omitted). This is precisely what happened
here. Just because Herod-Graham used the City’s
property does not mean that it was the proximate of
the injury. There is nothing indicating it was.
Accordingly, the Court holds that the City retains its
immunity against all of Plaintiffs’ tort claims.
Even if the City did not retain its immunity,
however, each of Plaintiffs’ different tort claims fail for
independent reasons. First, Plaintiffs’ NIED claim
should be dismissed because NIED is not a cognizable
claim under Texas law. Boyles v. Kerr, 855 S.W.2d 593,
597 (Tex. 1993). Second, the TTCA specifically states
that section 101.021(2) does not alter the City’s
immunity to claims of intentional torts like IIED. TEX.
CIV. PRACTICE AND REM. CODE §101.057(2); Graham v.
Dallas Area Rapid Transit, 288 F. Supp. 3d 711, 748
(N.D. Tex. 2017) (citing City of Watauga v. Gordon, 434
S.W.3d 586, 589 (Tex. 2014)). Third, because the Court
has already held that the alleged deprivation of rights
that Plaintiffs state forms the basis of their section
1983 bystander claim was not a deprivation of rights at
all, the claim lacks any basis. Resp. at 47; MSJ Order
at 6-10. Finally, as the Court has already stated, the
Plaintiffs’ common law bystander claim fails because
“before a bystander may recover, he or she must
establish that the defendant has negligently inflicted
serious or fatal injuries on the primary victim.
Plaintiffs do not, as they cannot, allege that

App. 37
Herod-Graham inflicted serious or fatal injuries on
Deanna Cook.” October 14, 2015 Order 12, n.8 [163].
Thus, even if the City did not retain its immunity, the
Court would still dismiss all of Plaintiffs’ tort claims on
summary judgment.
CONCLUSION
For the reasons stated above, the Court grants the
City’s motion for summary judgment.
Signed February 6, 2019.
/s/David C. Godbey
David C. Godbey
United States District Judge

App. 38

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:12-CV-3788-N
[Filed August 1, 2017]
_____________________________
VICKIE COOK, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF DALLAS, et al., )
)
Defendant.
)
_____________________________ )
ORDER
This Order addresses Defendant Angelia
Herod-Graham’s motion for summary judgment [190].
Because Herod-Graham is entitled to qualified
immunity, the Court grants the motion.
I. ORIGINS OF THE MOTION
This case arises out of Defendants the City of Dallas
(“the City”) and Herod-Graham’s response to 9-1-1 calls
from Plaintiffs Deanna Cook and Vickie Cook. On
August 17, 2012, Deanna Cook, a domestic violence

App. 39
victim, called 9-1-1 for assistance while an intruder
attacked her inside of her home. Nearly fifty (50)
minutes after Deanna Cook placed her 9-1-1 call, two
officers arrived at Deanna Cook’s home. The officers
knocked on the door and called Deanna Cook’s cellular
phone before leaving. On August 19, 2012, Plaintiffs
Vickie Cook, Karletha Cook-Gundy, N.W., and A.W.
(respectively, Deanna Cook’s mother, sister, and
daughters) (collectively, “Plaintiffs”) went to Deanna
Cook’s home to check on her, at which point they
noticed suspicious conditions at the house. Vickie Cook
called 9-1-1 seeking help in entering her daughter’s
home. Herod-Graham was the emergency call-taker
who received Vickie Cook’s call. Rather than
immediately send officers to Deanna Cook’s home,
Herod-Graham repeatedly told Vickie Cook that she
must first contact the jails and local hospitals to look
for Deanna Cook. Plaintiffs eventually decided to break
into the home, at which point they found Deanna
Cook’s dead body half-in and half-out of the bathtub,
floating atop overflowing water. Sometime after this
incident, the City fired Herod-Graham.
Plaintiffs brought claims for violation of equal
protection and due process under the Fourteenth
Amendment, and a number of state law claims, against
Tonyita Hopkins, Kimberley Cole, Johnnye Wakefield,
Yaminah Shani Mitchell, Officer Julie Menchaca,
Officer Amy Wilburn, Herod-Graham, the City of
Dallas Police Department, and the City in Case No.
3:12-cv-03788-N (“Cook I”). The Court has dismissed
these claims. Plaintiffs also brought claims against
T-Mobile USA, Inc.; MetroPCS Communications Inc.;
Samsung Electronics Co Ltd; Samsung

App. 40
Telecommunications America LLC; the City; and
Herod-Graham in Case No. 3:14-cv-02907-P (“Cook II”).
On September 25, 2015, the Court granted
consolidation of Cook I and Cook II. The Court has
dismissed Plaintiffs’ claims against the
telecommunications defendants.
On March 15, 2016, the Court granted summary
judgment in favor of the City on Plaintiffs’ Monell
claims arising from Deanna Cook’s August 17, 2012
9-1-1 call. Plaintiffs’ remaining claim is that the City
and Herod-Graham unconstitutionally deprived the
Plaintiffs of equal protection of the law “in the refusal
to prioritize and respond quickly to the call” from
Vickie Cook, which was the consequence of an alleged
custom of discriminating in the treatment of 9-1-1 calls
on the bases of race, gender, socioeconomic background,
and status as a domestic violence victim. Plaintiffs
allege that Herod-Graham either acted independently
in depriving Plaintiffs of their constitutional rights, or
alternatively that Herod-Graham followed the
discriminatory customs and policies of the City.
Herod-Graham now moves for summary judgment,
arguing that she is protected by qualified immunity.
Plaintiffs oppose the motion.
II. THE LEGAL STANDARDS
A. The Summary Judgment Standard
Courts “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247

App. 41
(1986). In making this determination, courts must view
all evidence and draw all reasonable inferences in the
light most favorable to the party opposing the motion.
United States v. Diebold, Inc., 369 U.S. 654, 655 (1962).
The moving party bears the initial burden of informing
the court of the basis for its belief that there is no
genuine issue for trial. Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986).
When a party bears the burden of proof on an issue,
“he must establish beyond peradventure all of the
essential elements of the claim or defense to warrant
judgment in his favor.” Fontenot v. Upjohn Co., 780
F.2d 1190, 1194 (5th Cir. 1986). When the nonmovant
bears the burden of proof, the movant may demonstrate
entitlement to summary judgment either by
(1) submitting evidence that negates the existence of an
essential element of the nonmovant’s claim or
affirmative defense, or (2) arguing that there is no
evidence to support an essential element of the
nonmovant’s claim or affirmative defense. Celotex, 477
U.S. at 322–25. Once the movant has made this
showing, the burden shifts to the nonmovant to
establish that there is a genuine issue of material fact
so that a reasonable jury might return a verdict in its
favor. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586–87 (1986). Moreover,
“[c]onclusory allegations, speculation, and
unsubstantiated assertions” will not suffice to satisfy
the nonmovant’s burden. Douglass v. United Servs.
Auto. Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en
banc). Indeed, factual controversies are resolved in
favor of the nonmoving party “‘only when an actual
controversy exists, that is, when both parties have

App. 42
submitted evidence of contradictory facts.’”
Olabisiomotosho v. City of Hous., 185 F.3d 521, 525
(5th Cir. 1999) (quoting McCallum Highlands, Ltd. v.
Washington Capital Dus, Inc., 66 F.3d 89, 92 (5th Cir.
1995)).
B. The Qualified Immunity Standard
“Qualified immunity is a defense available to public
officials performing discretionary functions ‘ . . . insofar
as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person should have known.’” Noyola v. Texas Dep’t of
Human Resources, 846 F.2d 1021, 1024 (5th Cir. 1988)
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982)). This doctrine balances two interests: “the need
to hold public officials accountable when they exercise
power irresponsibly and the need to shield officials
from harassment, distraction, and liability when they
perform their duties reasonably.” Pearson v. Callahan,
555 U.S. 223, 231 (2009). “Because qualified immunity
is designed to shield from civil liability ‘all but the
plainly incompetent or those who knowingly violate the
law,’” denial of qualified immunity is appropriate only
in rare circumstances. Brady v. Ford Bend Cty., 58
F.3d 173, 173–74 (5th Cir. 1995) (quoting Malley v.
Briggs, 475 U.S. 335, 341 (1986)).
Once a defendant raises the defense of qualified
immunity, the plaintiff bears the burden to
demonstrate that it does not apply. Club Retro, L.L.C.
v. Hilton, 568 F.3d 181, 194 (5th Cir. 2009); McClendon
v. City of Columbia, 305 F.3d 314, 323 (5th Cir. 2002).
In the summary judgment context, courts “no longer
[permit the plaintiff to] rest on the pleadings” and,

App. 43
instead, consider the evidence in the record in the light
most favorable to the plaintiff. McClendon, 305 F.3d at
323 (citing Behrens v. Pelletier, 516 U.S. 299, 309
(1996)).
In accordance with the Saucier test, the plaintiff
must demonstrate a genuine issue of material fact:
“(1) that the defendants violated the plaintiff’s
constitutional rights and (2) that the violation was
objectively unreasonable.” Zarnow v. City of Wichita
Falls, 500 F.3d 401, 407 (5th Cir. 2007) (citing Fraire
v. City of Arlington, 957 F.2d 1268, 1273 (5th Cir.
1992)). Stated more simply, to resolve a public official’s
qualified immunity claim, a court must consider two
factors. First, has the plaintiff shown a violation of a
constitutional right? Saucier v. Katz, 533 U.S. 194, 201
(2001). And, second, was the right “clearly established”
at the time of the public official’s alleged misconduct?
Id.
“The judges of the district courts . . . [may] exercise
their sound discretion in deciding which of the two
prongs of the qualified immunity analysis should be
addressed first in light of the circumstances in the
particular case at hand.” Pearson, 555 U.S. at 235. “But
under either prong, courts may not resolve genuine
disputes of fact in favor of the party seeking summary
judgment.” Tolan v. Cotton, 134 S. Ct. 1861, 1866
(2014).
III. HEROD-GRAHAM IS ENTITLED TO
SUMMARY JUDGMENT
Because Plaintiffs have not produced summary
judgment evidence sufficient to rebut Herod-Graham’s

App. 44
defense of qualified immunity, Herod-Graham is
entitled to summary judgment. Plaintiffs argue that
Herod-Graham violated 42 U.S.C. § 1983 by refusing to
prioritize and respond quickly to Vickie Cook’s 9-1-1
call due to an alleged custom of discriminating in the
treatment of 9-1-1 calls on the bases of race, gender,
socioeconomic background, and status as a domestic
violence victim.
“Section 1983 provides a cause of action against any
person who, acting under color of state law, abridges
rights created by the Constitution and the law of the
United States.” Beanal v. Freeport-McMoRan, Inc., 969
F. Supp. 362, 375 (E.D. La. 1997) (citing ERWIN
CHEMERINSKY, FEDERAL JURISDICTION § 8.1 (2d ed.
1994)). “To state a claim under the Equal Protection
Clause, a § 1983 plaintiff must allege that a state actor
intentionally discriminated against the plaintiff
because of membership in a protected class.” Williams
v. Bramer, 180 F.3d 699, 705 (5th Cir. 1999). Thus, a
plaintiff must demonstrate that he or she has been
treated differently due to membership in a protected
class, and such plaintiff must also allege that such
unequal treatment stemmed from a discriminatory
intent. See Hampton Co. Nat. Sur., LLC v. Tunica
County, Miss., 543 F.3d 221, 228 (5th Cir. 2008).
A governmental entity providing protective services
“may not, of course, selectively deny its protective
services to certain disfavored minorities without
violating the Equal Protection Clause.” DeShaney v.
Winnebago County Dep’t of Soc. Servs., 489 U.S. 189,
197 n.3 (1989). However, for a plaintiff to sustain a
gender-based equal protection claim, she must show:

App. 45
“(1) the existence of a policy, practice, or custom of law
enforcement to provide less protection to victims of
domestic assault than to victims of other assault;
(2) that discrimination against women was a
motivating factor; and (3) that the plaintiff was injured
by the policy, custom, or practice.” Shipp v. McMahon,
234 F.3d 907, 914 (5th Cir. 2000).
Herod-Graham argues that her discretionary
actions were objectively reasonable, and that the record
is devoid of any facts to suggest that her actions were
the result of an intentional discriminatory motive. She
claims that she followed the training she received as a
City employee, and that she then used her reasonable
judgment to respond to what she classified as a missing
person 9-1-1 call. Herod-Graham claims that she did
not recognize Vickie Cook’s voice to be that of an
African-American, that she did not know that Deanna
Cook was a domestic violence victim, and that she did
not ascertain that Deanna Cook’s address was located
in a socioeconomically deprived neighborhood.
Accordingly, Herod-Graham claims that qualified
immunity protects what she claims were her objectively
reasonable actions.
In Beltran v. City of El Paso, 367 F.3d 299 (5th Cir.
2004), the Fifth Circuit held that where an appellee
failed to state a violation of clearly established equal
protection or due process rights against a 9-1-1
operator, the operator was entitled to the defense of
qualified immunity. In that case, a young woman called
9-1-1 to report that her father was drunk and
potentially violent. That same young woman had a few
months earlier called 9-1-1 to report that her father

App. 46
was drunk and becoming abusive to her and her
mother. The 9-1-1 operator coded the call as a family
violence assault, a lower priority level than an injury in
progress, and no police units immediately responded.
The 9-1-1 operator did not include the young woman’s
statements that she feared for her life or the prior
report of the father’s domestic violence. The father shot
and killed the young woman and her mother. The
Court held that even if the City’s classification policy
may have had an adverse disparate impact on female
victims of domestic violence, the appellee made no
showing that the City assigned a lower level priority
code to 9-1-1 family violence assault calls as the result
of an effort to discriminate against women. Without
such evidence, the Fifth Circuit held that the 9-1-1
operator’s actions were reasonable and that she
designed her questions to assess the situation at hand.
Further, the Fifth Circuit noted that there was no
evidence that the police would have arrived in time to
save the lives of the young woman or her mother.
Here, Plaintiffs produce evidence sufficient to show
that the City, at the time of the incident at hand, had
a custom of providing less protection in 9-1-1 call
taking on the bases of race, socioeconomic background,
or status as a domestic violence victim. Plaintiffs
provide this evidence in the form of citizen complaints,
statements from the Mayor of Dallas, statements from
other former 9-1-1 call operators, confirmed incidents
of lost files and misplaced paperwork involving family
violence, subsequent changes to City policies, and a
review of the City’s response times to 9-1-1 priority
calls. However, this evidence is only sufficient to
demonstrate a discriminatory purpose if it “implies

App. 47
that the decision maker singled out a particular group
for disparate treatment and selected his course of
action at least in part for the purpose of causing its
adverse effect on an identifiable group.” Priester v.
Lowndes County, 354 F.3d 414, 424 (5th Cir. 2004). A
discriminatory purpose is “more than intent as volition
or intent as awareness of consequences. It implies that
the decisionmaker . . . selected or reaffirmed a course
of action at least in part ‘because of,’ not merely ‘in
spite of’ its adverse effects upon an identifiable group.”
Personnel Administrator v. Feeney, 442 U.S. 256, 279
(1979). Plaintiffs, however, have not shown that the
City’s custom existed for the purpose of discriminating
against an identifiable group. Even taking as true
Plaintiffs’ assertions that statistics show that City has
a custom of giving a different and more rapid response
to certain 9-1-1 callers than to others, that the Mayor
of Dallas has pointed out the City’s flaws in its
responses to domestic violence victims and condemned
the handling of Plaintiffs’ 9-1-1 calls, and that the City
has mishandled domestic violence cases and
paperwork, none of this evidence demonstrates that the
City or Herod-Graham acted for the purpose of causing
an adverse effect upon an identifiable group. See, e.g.,
Shipp, 234 F.3d at 914 (“While statistical evidence
showing disproportional impact is probative on the
issue of gender-based motivation, such evidence
without a showing of intent is insufficient to sustain an
Equal Protection claim.”); see also Kelley v. City of
Wake Village, Texas, 264 Fed.Appx. 437, 443 (5th Cir.
2008) (“The mere existence of disparate treatment –
even widely disparate treatment – does not furnish
adequate basis that discrimination was [impermissibly]

App. 48
motivated.”) (quoting Soto v. Flores, 103 F.3d 1056,
1057 (1st Cir. 1997)).
Further, an equal protection plaintiff “must show
that her injuries are the result of law enforcement
‘inaction or conduct pursuant to invidious policies.’”
Beltran, 367 F.3d at 306 (citing Shipp, 234 F.3d at
914). Plaintiffs cannot show that Herod-Graham acted
pursuant to any of the City’s allegedly invidious
policies. Herod-Graham, in her deposition testimony,
states that she did not know what part of Dallas Vickie
Cook called from, and that she could not ascertain the
race of Vickie Cook. See App. To Def. Angelia
Herod-Graham’s Br. in Supp. of Mot. for Summ. J., Ex.
A at 16–17 [189-1]. Further, Herod-Graham states that
she did not know the reasons for Deanna Cook’s
previous 9-1-1 calls (i.e. that Deanna Cook was a
domestic violence victim). See Def. Angelia
Herod-Graham’s Reply Br. in Supp. of Mot. for Summ.
J. 6 [215]. Though Plaintiffs provide evidence to show
that Herod-Graham had access to information in the
Incident Editor and Premise History sufficient to show
demographics and the nature of calls, such evidence
does not show that Herod-Graham actually accessed
that information. That Herod-Graham was aware that
the police went to Deanna Cook’s home two days prior
is not enough to rebut Herod-Graham’s statement that
she knew no more than that fact.
Plaintiffs have not met their burden to show that
Herod-Graham violated their equal protection rights.
Thus, Plaintiffs have not rebutted Herod-Graham’s
assertion of qualified immunity.

App. 49
CONCLUSION
Based on the forgoing reasons, the Court grants
Herod-Graham’s motion for summary judgment.
Signed August 1, 2017.
/s/David C. Godbey
David C. Godbey
United States District Judge

App. 50

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CIVIL ACTION NO. 3:12-CV-3788-P
[Filed August 27, 2015]
________________________________
VICKIE COOK, Individually and )
as Natural Mother to DEANNA
)
COOK, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF DALLAS, et al.,
)
)
Defendants.
)
________________________________ )
ORDER
Now before the Court are four motions for summary
judgment based on qualified immunity filed by
Defendants Tonyita Hopkins, Johnnye Wakefield,
Yaminah Shani Mitchell, Julie Menchaca, and Amy
Wilburn (collectively, the “Individual Defendants”).
On November 7, 2014, Defendant Hopkins filed her
motion for summary judgment. Doc. 134. Defendant
Wakefield filed her motion on November 14, 2014. Doc.

App. 51
140. That same day, Defendant Mitchell filed a motion
for summary judgment. Doc. 142. Defendants Julie
Menchaca and Amy Wilburn (collectively “the Officers”)
also filed a joint motion for summary judgment on
November 14, 2014. Doc. 144.
Plaintiffs filed a response addressing the motions
collectively on November 28, 2014. Doc. 147.
Defendants filed separate replies on December 12,
2014. Doc. 150 (Hopkins’s reply); 151 (the Officers’
reply); 152 (Mitchell’s reply); 153 (Wakefield’s reply).
After reviewing the briefing, the evidence, and the
applicable law, the Court GRANTS the Individual
Defendants’ Motions for Summary Judgment based on
qualified immunity.
I. Background
This lawsuit is about the City of Dallas’s response
to a 9-1-1 call that failed to prevent Deanna Cook’s
(“Deanna”) murder. Deanna had a history of calling the
police to report domestic abuse. On August 17, 2012,
Tonyita Hopkins, a 9-1-1 call center employee,
answered a call from Deanna. At the time of Deanna’s
call, Johnnye Wakefield was filling in for call center
supervisor Kimberley Cole. Wakefield assisted Hopkins
in handling and classifying Deanna’s call.
Deanna called 9-1-1 at 10:55 a.m. on August 17,
2012. However, Deanna never spoke to Hopkins.
Hopkins only heard sounds in the background of
Deanna screaming and pleading with an intruder who
had been her ex-husband. Despite being unable to
communicate with the caller, Hopkins requested police
dispatch for the active disturbance and stayed on the

App. 52
line. She assigned a call Signal 6X, which denotes a
major disturbance and is a Priority II urgent call. At
11:01 a.m., the intruder told Deanna that he was going
to kill her. After the disturbance appeared to have
ended and the line remained silent for ten minutes,
Wakefield allegedly advised Hopkins to disconnect and
call back. Hopkins followed Wakefield’s advice and
disconnected the call at 11:11 a.m., but her attempt to
call back was met by Deanna’s voicemail.
According to Plaintiffs, from listening to the call,
Hopkins knew that Deanna was a minority caller who
was calling from a socioeconomically deprived
neighborhood about a domestic dispute. Also, Plaintiffs
believe that at some point Hopkins discovered that
Deanna had a history of reporting domestic violence.
Following the dispatch, Hopkins did not upgrade the
call to a Priority I emergency call or follow up to ensure
that police dispatch actually sent officers to Deanna’s
residence.
At 11:02 a.m., Yaminah Mitchell, a relief police
dispatcher in charge of assigning and broadcasting
police calls according to priority, was made aware of
Deanna’s call. She was also aware that police had an
address for Deanna’s call and that it had been marked
“disturbance still heard in the background.” Because no
officers were currently available, Mitchell placed the
call in queue with other 9-1-1 calls. Mitchell did not
assign the call until 11:29 a.m. when that Officers Julia
Menchaca and Amy Wilburn first became available. At
that time, the Officers volunteered to respond to the
call. According to Plaintiffs, Mitchell knew that Deanna
was a minority caller who was calling from a

App. 53
socioeconomically deprived neighborhood about a
domestic dispute and at some point discovered that
Deanna had a history of reporting domestic violence.
When the Officers volunteered to take the call at
11:29 a.m., they were fourteen minutes away from
Deanna’s residence. Despite this, the Officers stopped
on the way to buy water at a convenience store. The
stop lasted two minutes, and the Officers arrived
sixteen minutes after they were assigned the call.
Plaintiffs argue the Officers knew that Deanna was a
minority calling from a socioeconomically deprived
neighborhood about what appeared to be a domestic
dispute and that she had previously reported claims of
domestic violence and stalking.
The Officers knocked on the door, and, when there
was no answer, had someone call Deanna’s cell phone.
The call went to voicemail. The Officers did not scale
Deanna’s fence or go to the rear of Deanna’s residence
due to the presence of at least one dog. Because the
Officers did not see anything through the windows, did
not hear any noise indicating a disturbance, and were
unable to reach Deanna on the number she called 9-1-1
from, the Officers left Deanna’s residence without
further investigation.
Two days later, Deanna’s two daughters, her
mother, and her sister went to Deanna’s residence after
Deanna did not show up for church. At Deanna’s
residence, the family noticed that Deanna’s dogs were
barking frantically and that water was leaking from
the house. After Deanna did not respond to knocks on
her door or calls to her cell phone, her mother, Vickie,
called 9-1-1. After receiving no help in response to their

App. 54
call, the family then decided to force their way into the
residence and ultimately discovered Deanna’s lifeless
body in her bathtub, the victim of an apparent
homicide.
In the aftermath of the incident, Hopkins was
disciplined for her actions. Dallas Police Chief David
Brown suspended Hopkins, allegedly admitting that
Hopkins’ obvious failure cost Deanna her life.
On March 22, 2013, Plaintiffs filed their Second
Amended Complaint against Hopkins, Wakefield,
Mitchell, and the Officers (collectively, the “Individual
Defendants”), as well as the City of Dallas. The Court
subsequently dismissed each of Plaintiffs’ claims
against the Individual Defendants except for their
claims arising out of the Equal Protection Clause of the
Fourteenth Amendment for discrimination based on
race, gender, socioeconomic background, and status as
domestic violence victim. See Doc. 101 (order regarding
the Officers); Doc. 108 (order regarding Hopkins); Doc.
109 (order regarding Wakefield); Doc. 110 (order
regarding Mitchell). Now, the Individual Defendants
move for summary judgment based on qualified
immunity.
II. Legal Standard & Analysis
a. Motion for Summary
Qualified Immunity

Judgment

on

Under Federal Rule of Civil Procedure 56, courts
“grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “[T]he substantive law will

App. 55
identify which facts are material.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A genuine
dispute of material fact exists “if the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Id. Mere assertions of a factual
dispute unsupported by probative evidence will not
prevent summary judgment. Fed. R. Civ. P. 56(c); see
Anderson, 477 U.S. at 249-50. This means that
“conclusory statements, speculation, and
unsubstantiated assertions cannot defeat a motion for
summary judgment.” RSR Corp. v. Int’l Ins. Co., 612
F.3d 851, 857 (5th Cir. 2010). Furthermore, a court has
no duty to search the record for evidence of genuine
issues of material fact. Fed. R. Civ. P. 56(c)(1) & (3); see
Ragas v. Tenn. Gas Pipeline Co., 136 F.3d 455, 458 (5th
Cir. 1998). Where the record discredits a Plaintiff’s
description of the facts, the Supreme Court concluded
that the Court should consider “the facts in the light
depicted by the videotape.” Scott v. Harris, 550 U.S.
372, 372, (2007).
The moving party generally bears the burden of
informing the district court of the basis for its belief
that there is an absence of a genuine issue for trial and
of identifying those portions of the record that
demonstrate such absence. See Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). However, a “qualifiedimmunity defense alters the usual summary judgment
burden of proof.” See Brown v. Callahan, 623 F.3d 249,
253 (5th Cir. 2010). When governmental employees
assert such defense in a motion for summary judgment,
they need only assert the defense in good faith. See
Gates v. Tex. Dep’t of Protective & Regulatory Servs.,
537 F.3d 404, 419 (5th Cir. 2008). They have no burden

App. 56
to put forth evidence. Beck v. Tex. State Bd. of Dental
Exam’rs, 204 F.3d 629, 633-34 (5th Cir. 2000). The
burden then shifts to the non-movant to show that the
defense does not apply. See Brown, 623 F.3d at 253.
“Qualified immunity protects government officials
‘from liability for civil damages insofar as their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.”’ Winston v. City of Shreveport, 390
F. App’x 379, 383 (5th Cir. 2010) (quoting Pearson v.
Callahan, 555 U.S. 223, 231 (2009)); see also Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). The “principles of
qualified immunity shield an officer from personal
liability when an officer reasonably believes that his or
her conduct complies with the law.” Pearson, 555 U.S.
at 223. Qualified immunity recognizes that government
officials may “make reasonable but mistaken
judgments and protects all but the plainly incompetent
or those who knowingly violate the law.”
Messerschmidt v. Millender, 132 U.S. 1235, 1244 (2012)
(citations omitted).
The Supreme Court has established a two-step
analysis to determine whether a police officer is
entitled to qualified immunity. Hope v. Pelzer, 536 U.S.
730, 736 (2002); see also Kinney v. Weaver, 367 F.3d
337, 356 (5th Cir. 2004). The Court must decide
“whether plaintiff’s allegations, if true, establish a
constitutional violation.” Id. The Court takes the facts
in the light most favorable to Plaintiff to determine
whether the alleged conduct amounts to a
constitutional violation. See Singleton v. Darby, No.
14–40040, 2015 WL 2403430, at *1-17 (Tex. May 21,

App. 57
2015). The Court must also ask “whether that right
was ‘clearly established’ at the time of the defendant’s
alleged misconduct.” Pearson, 129 U.S. at 816 (citing
Saucier v. Katz, 533 U.S. 194, 201(2001)). A court has
discretion to decide which of the two prongs of the
qualified immunity analysis should be addressed first
“in light of the circumstances in the particular case at
hand.” Id. at 818.
i. Plaintiffs’ Equal Protection Claims
Plaintiffs’ only remaining claim against each of the
Individual Defendants is for violating the Equal
Protection Clause of the Fourteenth Amendment by
discriminating against Deanna based on her race,
gender, socioeconomic background, and status as
domestic violence victim. See Doc. 101; 108; 109; 110.
The Equal Protection Clause of the Fourteenth
Amendment provides that “[n]o State shall ... deny to
any person within its jurisdiction the equal protection
of the laws.” U.S. Const. amend. XIV, § 1. “The Equal
Protection Clause directs that persons similarly
situated should be treated alike.” Williams v. Bramer,
180 F.3d 699, 705 (5th Cir. 1999) (citing Plyler v. Doe,
457 U.S. 202, 216 (1982)). “To state a claim under the
Equal Protection Clause, a § 1983 plaintiff must allege
either that (a) a state actor intentionally discriminated
against [her] because of membership in a protected
class[,] or (b) [she] has been intentionally treated
differently from others similarly situated and that
there is no rational basis for the difference in
treatment.” Gibson v. Tex. Dep’t of Ins.–Div. of Workers’
Comp., 700 F. 3d 227, 238 (5th Cir. 2012) (citations
omitted).

App. 58
If a governmental entity provides protective
services, it “may not, of course, selectively deny its
protective services to certain disfavored minorities
without violating the Equal Protection Clause.”
DeShaney v. Winnebago County Dep’t of Soc. Servs.,
489 U.S. 189, 197 n.3 (1989). In Shipp v. McMahon,
234 F.3d 907, 914 (5th Cir. 2000), overruled in part on
other grounds by McClendon v. City of Columbia, 305
F.3d 314, 328-29 (5th Cir. 2002), the Fifth Circuit
addressed such officer inaction by examining “whether
a domestic abuse victim’s complaint against a law
enforcement agency and its officials for failure to
effectuate an arrest, and for their policies, practices,
and customs that discriminate against victims of
domestic assault constitute intentional discrimination
against women, and thus is cognizable under the Equal
Protection Clause.” Shipp, 234 F.3d at 913. There, the
Court “held that in order for a plaintiff to sustain a
gender-based equal protection claim, she must show:
‘(1) the existence of a policy, practice, or custom of law
enforcement to provide less protection to victims of
domestic assault than to victims of other assault;
(2) that discrimination against women was a
motivating factor; and (3) that the plaintiff was injured
by the policy, custom, or practice.”’ Kelley v. City of
Wake Village, Tex., 264 F. App’x 437, 443 (5th Cir.
2008) (quoting Shipp, 234 F.3d at 914). The Court also
held that “law enforcement officials will be liable only
for those policies, practices, customs, and conduct that
are the product of invidious discrimination.” Shipp, 234
F.3d at 914.
In Beltran v. City of El Paso, 367 F.3d 299 (5th Cir.
2004), the Fifth Circuit applied the same three element

App. 59
test when examining a 9-1-1 operator’s motion for
summary judgment based on qualified immunity.
There, the Fifth Circuit reversed the district court’s
denial of qualified immunity because the plaintiff had
failed to “raise triable issues concerning intentional
gender-based discrimination or causation.” Id.at 305.
The Court began by noting the weakness of its
arguendo assumption that the city’s policy of
classifying “family violence assault” as lower priority
than “injury to a child in progress” had an adverse
disparate impact on female victims of domestic
violence. Id. The Court went on to find that the
plaintiff had brought no evidence indicating
discrimination against women was the motivating
factor behind the policy. Id. (“even where a plaintiff
brings forth statistical evidence showing
disproportionate impact that is probative on the issue
of gender-based motivation, such evidence without a
showing of intent is insufficient to sustain an equal
protection claim” (citations omitted)). Finally, the Fifth
Circuit found no causation because the plaintiff
provided “no evidence that the police would have
responded any more quickly if [the 911 operator] had
coded the call as an injury to a child in progress.” Id. at
306.
Here, Plaintiffs begin by arguing that they “have
offered evidence that the custom practiced by the City
of Dallas and its agents is to classify domestic violence
complaints by gender and race and to give less priority
to domestic violence calls – the Ignore and Delay
custom.” Doc. 148 at 32. However, Plaintiffs fail to cite
the record or point to any evidence supporting this
assertion. Cf. id. Instead, Plaintiffs argue that “the

App. 60
‘ignore and delay’ actions of each defendant came ‘after’
defendants discovered that Ms. Cook was a recurrent
domestic violence victim from a depressed
predominately minority neighborhood, who had been
abused by a Black male.” Id. (citing no evidence in
support). Based on this timing, Plaintiffs believe “a jury
could reasonably infer that defendants had a purpose
or intent of discriminating against Ms. Cook based on
her classifications that they had recently uncovered.”
id.
1. Hopkins
Plaintiffs argue that Hopkins acted improperly by
(1) holding Deanna’s call for 17 minutes while not
upgrading the call to require the officers to use lights
and sirens, (2) hanging up the phone call, (3) providing
less assistance to female victims in high crime and
minority race neighborhoods, (4) giving lower priority
to domestic violence calls, and (5) not instructing the
officers to use lights and sirens or make an emergency
entry to the residency. Doc. 148 at 34-35. However,
Plaintiffs fail to direct the Court to any evidence
indicating that Hopkins’s actions were discriminatory
or motivated by Deanna’s race, gender, socioeconomic
background, or status as a domestic violence victim.
Plaintiffs cannot maintain a claim simply because
Hopkins knew of Deanna’s race, gender, socioeconomic
background, and status as a domestic violence victim.
Plaintiffs must show that Hopkins acted in a
discriminatory manner based on that knowledge.
Plaintiffs insist that Hopkins acted unreasonably by
not upgrading the call to Priority I which would require
the officers to use lights and sirens. Doc. 148 at 35.

App. 61
Under the City of Dallas’s prioritization system, a call
can be properly categorized as a Priority I call if it is an
emergency that includes persons in danger or certain
family violence calls. Doc. 146-2 at 12. Under the
system, a call should be classified as Priority I if it
involves a disturbance with potential violence or
criminal assault. Id. In this case, evidence suggests
that Hopkins heard Deanna note that her assailant
broke down her door and heard the assailant say
several times that he was going to kill Deanna. Doc.
149-1 at 22-27. Based on this information, there is a
question of fact regarding whether Hopkins should
have upgraded the call to Priority I or if she
appropriately classified it as Priority II. Moreover,
Plaintiffs point out that the Dallas Police Department
issued a letter disciplining Hopkins for failing to “enter
complete critical information” in the call sheet. Doc.
148 at 37 (citing Doc. 149-2 at 42). In the initial
incident report, Hopkins noted that there was an active
disturbance in the background where a female was
screaming “help, please, stop it red.” Doc. 146-1 at 14.
However, Hopkins never reported to dispatch that
Deanna’s assailant threatened to kill her or broke down
the door. These omissions may have resulted in
dispatch or the responding officers not appropriately
grasping the urgency of the situation later in the
process. Therefore, a reasonable jury could find that
Hopkins acted unreasonably.
However, even considering the evidence in light
most favorable to Plaintiffs, Plaintiffs’ first argument
fails because they have brought no evidence indicating
that Hopkins’s actions were motivated by a
discriminatory intent. Cf. Doc. 148 at 35-37. First,

App. 62
Hopkins’s discipline letter does not suggest that
Hopkins acted with a discriminatory intent by not
upgrading the priority of the call. Moreover, the
evidence indicates that Hopkins did not even know
about the socioeconomic status of Deanna’s residence,
Deanna’s race, or Deanna’s status as a domestic
violence victim. While Hopkins could have accessed
information about Deanna through the incident editor,
Hopkins testified that she did not access that
information and had no reason to access that
information. Doc. 149-1 at 14. In fact, nothing indicates
that Hopkins did access the information. Therefore,
Plaintiffs’ first argument fails because they have not
raised a fact issue regarding whether Hopkins was
motivated by a discriminatory intent. Plaintiffs’ second
argument fails because Hopkins was ordered to hang
up the phone by her supervisor. Hopkins had already
waited through nearly ten minutes of silence before
obeying her superior’s order. Doc. 149-1 at 26-27. No
evidence suggests that the decision to hang up was
based on a discriminatory motive. Plaintiffs’ third and
fourth arguments fail because they are unsupported
and conclusory. Finally, Plaintiffs’ fifth argument fails
for the same reason as their first argument. The
evidence shows that Hopkins did not have the power to
ensure police were sent in a specific manner. See Doc.
146-7 at 54. Hopkins only had the power to upgrade the
call. As discussed, Plaintiffs have not shown that
Hopkins intentionally discriminated against Deanna by
failing to upgrade the call.
In sum, Plaintiffs have failed to raise a question of
fact regarding whether discrimination was a
motivating factor in Hopkins’s actions. Therefore,

App. 63
Hopkins is entitled to summary judgment based on
qualified immunity.
2. Wakefield
Plaintiffs argue that Hopkins’s supervisor
Wakefield acted improperly by (1) instructing Hopkins
to hang up the 9-1-1 call, (2) providing less assistance
to female victims in high crime and minority race
neighborhoods, (3) giving lower priority to domestic
violence calls, and (4) not instructing the officers to use
lights and sirens or make an emergency entry to the
residency. Doc. 148 at 48.
Plaintiffs’ first argument fails because they have
brought no evidence indicating that the decision to
hang up the 9-1-1 call was unreasonable or
discriminatory. Wakefield did not instruct Hopkins to
hang up the call until after they had waited through
nearly ten minutes of silence. Doc. 149-1 at 26-27.
Moreover, the evidence indicates that Wakefield did
not listen to Deanna’s 9-1-1 call and was told only that
the call was an open-line disturbance call. Wakefield
was not aware that the assailant was reported to have
broken the door to gain entry or that he threatened to
kill Deanna. Plaintiffs’ reliance on the letter
disciplining Hopkins is also unavailing because it does
not address the decision to hang up the phone. See Doc.
149-2 at 41. While Plaintiffs claim that “City of Dallas
[has] records of other employees who were also ignoring
domestic violence complaints and declining to arrest
perpetrators,” Plaintiffs fail to cite any evidence in the
record to support this claim. Doc. 148 at 49-50.
Plaintiffs point to no other evidence regarding the
decision to hang up the phone after nearly ten minutes

App. 64
of silence. Therefore, Plaintiffs have not raised a fact
question regarding whether Wakefield’s actions were
unreasonable or discriminatory. Plaintiffs’ second and
third arguments fail because they are unsupported and
conclusory. See Doc. 148 at 48. Finally, Plaintiff’s
fourth argument fails for the same reasons applied to
Hopkins. Because the evidence does not indicate that
the decision to not upgrade the call was unreasonable
on the basis of the information known by Wakefield,
Wakefield is entitled to summary judgment on
qualified immunity. Additionally, Plaintiffs bring no
evidence that any of Wakefield’s actions or inactions
were influenced by a discriminatory motive.
3. Mitchell
Plaintiffs assert that Mitchell discriminated against
Deanna by failing to prioritize Deanna’s call because of
her race, gender, socioeconomic neighborhood, and
status as a domestic violence victim. Doc. 148 at 46-47.
Specifically, Plaintiffs argue that Mitchell had access
to information about Deanna’s status, and delayed
dispatching police officers based on that information.
Id.
At the time Mitchell received information about
Deanna’s call, Mitchell only knew the information that
Hopkins had submitted in the Priority II report—that
a female called 9-1-1 at 10:57 a.m. and the call taker
heard scuffling and a disturbance in the background.
Doc. 146-1 at 14. Because no police officers were
available, Mitchell placed Deanna’s call in queue with
other calls. Doc. 146-1 at 43-45. The calls in the queue
were to be assigned to officers as soon as they became
available based on the priority level of the call and the

App. 65
order in which the call was received. Id. Based on this
procedure, Deanna’s call was not assigned by Mitchell
until the Officers noticed Deanna’s call in the queue
and volunteered to take it at 11:29. Id. at 66. Now,
Plaintiffs complain that this delay occurred as a result
of Mitchell’s intent to discriminate against Deanna.
Plaintiffs’ arguments fail because they have brought
no evidence that discrimination was a motivating factor
for Mitchell’s actions. Mitchell offered uncontroverted
sworn testimony that she was not familiar with
Deanna’s neighborhood, did not know Deanna’s race,
and did not know Deanna was a domestic violence
victim on the night of the incident. Doc. 146-3 at 26-27,
69, 87. Without knowledge of Deanna’s race,
neighborhood, or status as a domestic violence victim,
Mitchell could not have had a discriminatory
motivation based on Deanna’s status. Plaintiffs argue
that a fact issue remains regarding Mitchell’s
credibility because she had access to Deanna’s premise
history and incident editor. Doc. 148 at 47. However,
Plaintiffs point to no evidence suggesting that Mitchell
looked at Deanna’s premise history. Cf. Doc. 148 at 4648. Mitchell testified that in carrying out her duties,
there was no reason to look at the premise history and
she did not do so. Plaintiffs rely entirely on the
speculation that Mitchell could have looked at the
premise history and could have been motivated by the
information in it. This conjecture is insufficient to
defeat summary judgment. Plaintiffs fail to cite any
testimony from Mitchell or any other witness that
indicates Mitchell knew Deanna’s status, let alone that
Mitchell had a discriminatory motive. Cf. Doc. 148 at

App. 66
46-48. Therefore, Mitchell is entitled to summary
judgment on qualified immunity.
4. The Officers
Plaintiffs argue that the Officers discriminated
against Deanna by (1) not responding to the call with
the appropriate urgency, (2) stopping at 7-11 for
personal purchases on the way to the call, (3) refusing
to investigate the rear of Deanna’s residence,
(4) refusing to forcibly enter the residence,
(5) providing less protection to female victims,
(6) giving lower priority to 9-1-1 domestic violence calls,
and (7) not driving fast with lights and sirens on. Doc.
148 at 39.
However, the Plaintiff’s own evidence shows that at
the time the Officers volunteered to respond to
Deanna’s call, they were about fourteen minutes away
from Deanna’s residence. Doc. 149-2 at 68. The Officers
arrived at the residence less than sixteen minutes after
they received the assignment. See Doc. 146-1 at 14.
Accordingly, the Officer stopped for only two minutes
to purchase water on the way to the Priority II call.
Because the call was denoted as a Priority II call, the
Officers did not know there was an emergency and
could not use lights and sirens.1 Moreover, Plaintiffs
offer no evidence that the Officers knew of Deanna’s
race, socioeconomic, or domestic violence victim status.

1

Because the information regarding the assailant forcibly entering
Deanna’s residence and threatening to kill her was not forwarded
by the 9-1-1 call taker to dispatch, the Officers were not fully
aware of the situation at Deanna’s house.

App. 67
Nothing indicates that the Officers accessed that
information or need it.
Even assuming that the Officers acted unreasonably
and knew about Deanna’s race, gender, socioeconomic
neighborhood, and status as a domestic violence victim,
Plaintiffs offer no evidence linking that knowledge to
the Officers’ actions. Instead, Plaintiffs argue that the
proximity in time between the Officers learning the
information and their actions “suffices to produce a
genuine issue of material fact.” Doc. 148 at 41.
Plaintiffs also rely on the Officers’ statements that they
do not remember ever taking fifteen minutes to reach
a Caucasian residence or ever stopping to buy water
while traveling to a call in the past. Doc. 148 at 41-42.
However, the Officers’ statements only indicate that
they do not remember “what [they] have or have not
stopped for or where or when” or whether they ever
took more than fifteen minutes to respond to a call by
a Caucasian. Doc. 149-1 at 66; Doc. 146-6 at 77.
Neither statement suggests that the Officers would
have taken less time to respond or would have
investigated the residence more thoroughly if the call
had come from a similarly situated person of a different
race, gender, or socioeconomic group. Likewise, the
proximity in time does not, on its own, create a triable
question regarding whether the Officers had the
intention to discriminate.
The sum of Plaintiffs’ complaints merely allege that
the Officers failed to treat Deanna as well as they
should have. Plaintiffs offer no direct or circumstantial
evidence that the Officers treated Deanna differently
than they would have treated anyone of a different

App. 68
race, gender, or socioeconomic group. The central issue
of an equal protection claim is whether a person has
been intentionally treated differently from others
similarly situated. See Gibson v. Tex. Dep’t of Ins.—Div.
of Workers’ Comp., 700 F. 3d 227, 238 (5th Cir. 2012)
(citations omitted). Ultimately, Plaintiffs offer no
evidence that the Officers acted with discriminatory
intent. Therefore, the Officers are entitled to summary
judgment on qualified immunity.
b. Plaintiffs’ Alternative Class of One Claim
Finally, Plaintiffs argue that in the alternative, the
Court should reconsider its order dismissing Plaintiffs’
class of one claim. Doc. 148 at 54. After reviewing the
Court’s prior order, the Court maintains its decision.
Complaint clearly alleges that Deanna was treated
differently precisely because she was a member of one
or more of the classes addressed above—not because
she represented a “class of one.” See Doc. 81 at 27-31;
Doc. 92 at 21-22. In addition to failing to reference the
“class of one” theory in the pleadings, the facts and
causes alleged do not present “a plain statement of the
claim,” much less one that is “simple, concise, and
direct.” Doc. 62; see also Fed. R. Civ. P. 8(a), (d). Thus,
the Court is not persuaded that Plaintiffs have given
the Officers “fair notice of what the ... claim is and the
grounds upon which it rests.” Twombly, 550 U.S. at 555
(quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)
(omission in original)). The allegations are not
sufficient to show that the Individual Defendants
sought to deprive Deanna equal protection of the laws
“for reasons of a personal nature unrelated to the
[Officers’] duties.” Kelley v. City of Wake Village, 246 F.

App. 69
App’x 437, 444 (5th Cir. 2008). Altogether, the
discrimination at issue appears to be based on one or
more discrete classes—not some particularized animus
against Deanna herself.
III. Conclusion
For the foregoing reasons, the Court GRANTS the
Individual Defendants’ Motions for Summary
Judgment based on qualified immunity.
IT IS SO ORDERED.
Signed this 27th day of August, 2015.
/s/Jorge A. Solis
JORGE A. SOLIS
UNITED STATES DISTRICT JUDGE

App. 70

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
3:12-cv-03788-P
[Filed October 28, 2013]
___________________________________
VICKIE COOK, Individually and As )
Natural Mother to DEANNA COOK, )
N.W., a Minor, By and Through Her )
Grandparent and Guardian VICKIE )
COOK and Karletha Vickie-Gundy,
)
Individually and As Representative
)
of The Estate of DEANNA COOK,
)
DECEASED,
)
)
Plaintiffs,
)
)
vs.
)
)
THE CITY OF DALLAS, TONYITA )
HOPKINS, KIMBERLEY COLE,
)
JOHNNYE WAKEFIELD,
)
YAMINAH SHANI MITCHELL,
)
JULIA MENCHACA, AMY
)
WILBURN, and ANGELIA
)
HEROD-GRAHAM,
)
)
Defendants.
)
___________________________________ )

App. 71
ORDER
Now before the Court is Defendants Julia Menchaca
and Amy Wilburn’s (“the Officers”) Rule 12(b)(6)
Motion to Dismiss Plaintiffs’ Claims Alleged Against
Them in Plaintiffs’ Second Amended Original
Complaint (“Motion to Dismiss”), filed on April 17,
2013. (Doc. 72) Plaintiff Vickie Cook (“Vickie”),
individually and as natural mother of Deanna Cooke
(“Deanna”), et al., filed a Response on May 6, 2013.
(Doc. 81) The Officers filed a Reply on May 22, 2013.
(Doc. 87) Vickie filed a Surreply on May 30, 2013. (Doc.
92)
After reviewing the parties’ briefings, the evidence,
and the applicable law, the Court GRANTS in part and
DENIES in part the Officers’ Motion to Dismiss.
I. Background
This lawsuit is about the City of Dallas’ response to
a 9-1-1 call. Deanna had a history of calling the police
to report domestic abuse. (Doc. 62, p. 7) On August 17,
2012, a 9-1-1 call center operator answered a call from
Deanna, in which the operator could hear Deanna
screaming for assistance and pleading with her
attacker to stop. (Id. at 4-5) After approximately ten
minutes, a dispatch request was made, asking officers
to go to Deanna’s residence; however, the call was not
prioritized and officers were asked to volunteer for the
call. (Id. at 6)
The Officers, who were in the field, volunteered to
check into Deanna’s call. (Id. at 7) While en route to
Deanna’s residence, the Officers stopped to investigate
a residential burglary alarm call, to make personal

App. 72
purchases at a convenience store, and to complete
disposition comments for a previously resolved call.
(Id.) While at the convenience store, Officer Menchaca
requested that the dispatcher take her and Officer
Wilburn off the call. (Id.) However, the dispatcher
misunderstood the request. (Id.) According to Plaintiffs,
the Officers were aware that in her 9-1-1 call Deanna
“was screaming for help and that a scuffle could be
heard in the background.” (Id.) Additionally, the
Officers allegedly knew that Deanna was a minority
calling from a socioeconomically deprived neighborhood
about what appeared to be a domestic dispute and that
she had previously reported claims of domestic violence
and stalking. (Id. at 6-8, 23)
Although critical calls are purportedly responded to
within six minutes, the Officers arrived at Deanna’s
residence approximately 40 minutes after they
volunteered for the call. (Id. at 8, 12) The Officers
knocked on the door, and, when there was no answer,
had someone call Deanna’s cell phone. (Id.) The call
went to voicemail. (Id.) The Officers did not go to the
rear of Deanna’s residence or attempt to peer through
Deanna’s windows. (Id.) Shortly after they arrived, the
Officers left Deanna’s residence without further
investigation. (Id.)
Two days later, Deanna’s two daughters, her
mother, and her sister (the “family”) called 9-1-1 after
Deanna did not show up for church and did not respond
to knocks on her door or calls to her cell phone. (Id. at
8-9) Angelia Herod-Graham (“Herod-Graham”)
answered their call but allegedly withheld dispatching
any police until the family first checked local hospitals

App. 73
and prisons. (Id. at 9) Failing to generate a police
response to their call, the family decided to force their
way into the residence and ultimately discovered
Deanna’s lifeless body in her bathtub, the victim of an
apparent homicide. (Id. at 9-10)
On March 22, 2013, Vickie filed her Second
Amended Complaint against the Officers, among
others, in federal court. (Doc. 62) As amended, Vickie
sues for: (1) federal due process violations; (2) federal
equal protection violations; (3) negligence and gross
negligence; (4) bystander recovery; (5) wrongful death;
and (6) survival. (Id. at 19-36) The Officers now
challenge these claims.
II. Standard of Review
Federal Rule of Civil Procedure 12(b)(6) permits a
court to dismiss complaint when a plaintiff has failed
to state a claim for which relief can be granted. See
Fed. R. Civ. P. 12(b)(6). “To survive a motion to
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.”’ Iqbal v. Ashcroft, 556 U.S. 662,
677 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). The factual matter contained in
the complaint must allege actual facts, not mere legal
conclusions portrayed as facts. Id. at 667 (“Although for
the purposes of a motion to dismiss we must take all of
the factual allegations in the complaint as true, we ‘are
not bound to accept as true a legal conclusion couched
as a factual allegation.”’) (quoting Twombly, 550 U.S.
at 555). Additionally, the factual allegations of a
complaint must state a plausible claim for relief. Id A
complaint states a “plausible claim for relief” when the

App. 74
factual allegations contained therein, taken as true,
necessarily demonstrate actual misconduct on the part
of the defendant, not a “mere possibility of misconduct.”
Id.; see also Jacquez v. Procunier, 801 F.2d 789, 791-92
(5th Cir. 1986).
III. The Officers’ Motion to Dismiss
The Officers move to dismiss Vickie’s claims for
(1) federal due process violations; (2) federal equal
protection violations; (3) negligence and gross
negligence; (4) bystander recovery; (5) wrongful death;
and (6) survival. (Doc. 72) As to the federal due process
and equal protection claims, the Officers argue that all
of Vickie’s allegations are conclusory assertions of
misconduct and thus insufficient to permit a
reasonable inference that the Officers’ conduct deprived
Deanna of a federally protected right. (Id.) In support
of dismissing the remaining claims, the Officers re-urge
the City of Dallas’s motion requesting dismissal of the
Texas tort claims against the Officers. (Id.)
a. Federal Claims
Vickie brings her federal due process and equal
protection claims against the Officers in their personal
capacities pursuant to 42 U.S.C. § 1983.1 (Doc. 62, pp.
1

It is unclear from the Complaint whether Vickie’s claim is
brought against the Officers in their personal capacities, their
official capacities, or both. (See Doc. 62, pp. 25-26). Vickie alleges
that the Officers “acted independently during some of the conduct
or omissions [described in the Second Amended Complaint (the
“Complaint”)] and within the general scope of [their] employment
during other conduct or inaction.” (Id.) However, Vickie’s Response
emphasizes personal liability. (Doc. 81, pp. 9-10) Because an

App. 75
2, 25-26; Doc. 83, p. 9-10) To prevail under a § 1983
claim against the Officers in their personal capacity,
Vickie must show that the Officers, acting under color
of state law, deprived Deanna of a federal right.2 See
Kentucky v. Graham, 473 U.S. 159, 166 (1985); Brown
v. Miller, 519 F.3d 231, 236 (5th Cir. 2008).
Vickie alleges that the Officers’ liability stems from
their failure to prioritize and to promptly and
adequately respond to Deanna’s call, thereby violating
Deanna’s constitutional rights to due process and equal
official-capacity suit against the Officers is no different than a suit
against the City itself and the Complaint names the City directly,
the Court proceeds as if the suit was brought against the Officers
solely in their personal capacities. See Will v. Mich. Dep’t of State
Police, 491 U.S. 58 (1989) (“Although ‘state officials literally are
persons,’ an official-capacity suit against a state officer ‘is not a
suit against the official but rather is a suit against the official’s
office. As such it is no different from a suit against the State
itself.”’ (citation omitted); Monell v. Dep’t of Soc. Serv. Of City of N.
Y., 436 U.S. 658, 690, n. 55 (1978) (“[O]fficial-capacity suits
generally represent only another way of pleading an action against
an entity of which an officer is an agent.”).
2

The Officers argue in their Motion to Dismiss that Vickie cannot
successfully plead a § 1983 violation based on the Officers’ failure
to follow Article 5.04(a) of the Texas Code of Criminal Procedure
because § 1983 only applies to federal rights. (Doc. 72, pp. 20-21)
This might be true if Vickie were merely alleging a state law
violation. Instead, Vickie is arguing that § 1983 liability attaches
because the state law was violated “due to [Deanna’s] minority
status.” (Doc. 62, p. 22) The state law violation is merely incidental
to the underlying allegation of racial discrimination. Thus, rightly
understood, Vickie’s claim that the Officers violated Deanna’s due
process and equal protection rights by failing to follow Article
5.04(a) does not fail as a matter of law and is included in the
ensuing discussion.

App. 76
protection. (Doc. 62, p. 25) It is clear that the
Complaint alleges sufficient factual matter to establish
the “under color of law” prong required to succeed in a
§ 1983 claim.3 (Doc. 62, pp. 4, 6-8) Thus, the Court will
not discuss this element. In their briefings, the Officers
and Vickie address the sufficiency of the factual matter
to establish a constitutional violation. The Court
individually addresses Vickie’s claims for (1) due
process violations and (2) equal protection violations.
i. Due Process
The Court first considers Vickie’s due process claim.
The Due Process Clause of the Fourteenth Amendment
provides that “[n]o State shall ... deprive any person of
life, liberty, or property without due process of law.”
U.S. Const. amend. XIV, § 1. It only protects an
individual’s life, liberty, and property from government
action. DeShaney v. Winnebago Cnty. Dep’t Soc. Servs.,
489 U.S. 189, 195 (1989); see also Kovacic v. Villarreal,
628 F.3d 209, 213 (5th Cir. 2010). The “failure to
protect an individual against private violence simply
does not constitute a violation of the Due Process
Clause.” McClendon v. City of Columbia, 305 F.3d 314,
324 (5th Cir. 2002) (quoting DeShaney, 489 U.S. at
197). Indeed, the Due Process Clause generally does
not confer an “affirmative right to governmental aid,
even where such aid may be necessary to secure life,
liberty, or property interests of which the government

3

Acts performed by an officer in her capacity as a police officer,
even if illegal or not authorized by state law, are considered to
have been taken under color of law. Monroe v. Pape, 365 U.S. 167,
180 (1961) (overruled on other grounds by Monell, 436 U.S. 658).

App. 77
itself may not deprive the individual.” DeShaney, 489
U.S. at 195; see also Kovacic, 628 F.3d at 213.
Only in “certain limited circumstances” when a
“special relationship” is formed between the individual
and the government does the Due Process Clause
impose on the government a duty to protect an
individual from private violence. McClendon v. City of
Columbia, 305 F.3d 314, 324 (5th Cir. 2002) (quoting
DeShaney, 489 U.S. at 198,200). Such a relationship is
formed “[w]hen the state, through the affirmative
exercise of its powers, acts to restrain an individual’s
freedom to act on his own behalf ‘through
incarceration, institutionalization, or other similar
restraint of personal liberty.”’ Kovacic, 628 F.3d at 213
(citing McClendon, 305 F.3d at 324 (quoting DeShaney,
489 U.S. at 200)). When considering “other similar
restraints on personal liberty” it is important to note
that “[t]he affirmative duty to protect arises not from
the State’s knowledge of the individual’s predicament
or from its expressions of intent to help him, but from
the limitation which it has imposed on his freedom to
act on his own behalf.” DeShaney, 489 U.S. at 200.
As an additional basis for liability, some
jurisdictions have endorsed the “state-created danger
theory.” (See Doc. 81, pp. 20-21) This doctrine makes
the state liable under § 1983 “if it created or
exacerbated the danger” of private violence. Bustos v.
Martini Club Inc., 599 F.3d 458, 466 (5th Cir. 2010).
However, the Fifth Circuit “has consistently refused to
recognize a ‘state-created danger’ theory of § 1983
liability even where the question of the theory’s

App. 78
viability has been squarely presented.”4 Beltran v. City
of El Paso, 367 F.3d 299, 307 (5th Cir. 2004); see also
Bustos, 599 F.3d at 466 n.4; Estate of Carmichael ex rel.
Carmichael v. Galbraith, No. 3:11-CV-0622-D, 2012
WL 13568, at *3 (N.D. Tex. Jan. 4, 2012) (“[B]ecause
the state-created danger exception to DeShaney is not
recognized in this circuit, the court dismisses [the
plaintiffs] § 1983 claim to the extent it is based on an
alleged violation of the Due Process Clause of the
Fourteenth Amendment.”). Therefore, since the Fifth
Circuit does not recognize the state-created danger
theory, this Court will not consider it for claims
alleging Due Process Clause violations.
Taken as true, the facts in Vickie’s Second Amended
Complaint (the “Complaint”) demonstrate that the
Officers failed to prioritize Deanna’s call, instead
stopping to make personal purchases at a convenience
store, to investigate a residential burglary alarm, and
to complete disposition comments from a previously
resolved call before arriving at Deanna’s house
approximately 50 minutes after Deanna placed her 9-11 call. (See Doc. 62, pp. 7-8, 25-26) The Complaint

4

“A panel of this Court adopted the state-created danger theory.
McClendon v. City of Columbia, 258 F.3d 432, 436 (5th Cir. 2001).
However, after en banc review, the panel’s ruling was vacated and
with it our recognition of the theory. See McClendon v. City of
Columbia, 305 F.3d 314, 333 (5th Cir. 2002); Fifth Circuit Rule
41.3. In Scanlan v. Tex. A&M Univ., 343 F.3d 533 (5th Cir. 2003),
we found that ‘this Court has never explicitly adopted the statecreated danger theory.’ Id. at 537. Despite remanding that case to
the district court for further proceedings, we did not recognize the
state created danger theory.” Rivera v. Haus. Indep. Sch. Dist., 349
F.3d 244, 249 n.5 (5th Cir. 2003).

App. 79
further alleges that once at Deanna’s residence, though
aware that Deanna had previously reported claims of
domestic violence and stalking, the Officers
inadequately investigated the scene when they were
unable to make contact with Deanna. (See id. at 8, 2122, 25-26) Most importantly, for Due Process Clause
purposes, the Complaint alleges Deanna’s death
resulted from domestic violence. (See id. at 4-11, 19-27)
Thus, the only reasonable inference is that Deanna’s
attacker was a private actor and not a government
actor.
Considering the pleadings, Vickie fails to allege
sufficient facts to state a plausible claim that the
Officers violated Deanna’s due process rights. Even
drawing all inferences in Vickie’s favor, the facts
simply do not show that a government actor deprived
Deanna of her life, liberty, or property. Furthermore,
there is no evidence to suggest that the government
ever restrained Deanna’s personal liberty to act on her
own behalf, thereby creating a “special relationship.”5
At best, the facts demonstrate knowledge of Deanna’s
predicament and a failure to provide government aid
necessary to protect her life, liberty, or property. (See
Doc. 62, pp. 4-11, 19-26) Indeed, the Complaint’s
5

In her Response, Vickie conflates the “special relationship”
exception with the “state-created danger theory.” The two cases
she discusses to support a “special relationship” between Deanna
and the state address the “state-created danger theory.” (See Doc.
81, pp. 21-23); Okin v. Vill. of Cornwall-On-Hudson Police Dep’t,
577 F.3d 415 (2d Cir. 2009); Freeman v. Ferguson, 911 F.2d 52 (8th
Cir. 1990). Thus, the cases are inapposite because the Fifth Circuit
does not recognize the “state-created danger” theory and the cases
do not provide support for a “special relationship.”

App. 80
underlying argument is that the Officers, and the other
Defendants, violated Deanna’s rights “by failing to
provide proper emergency assistance.” (See id. at 19)
But this does not state a claim for a Due Process
Clause violation. See DeShaney, 489 U.S. at 200.
Therefore, the Court GRANTS the Officers’ Motion
to Dismiss the § 1983 claim to the extent that it alleges
a violation of the Due Process Clause of the Fourteenth
Amendment because Vickie failed to plead sufficient
facts showing that a government actor caused Deanna’s
bodily harm or created a special relationship between
her and the state.
ii. Equal Protection
The Court next considers whether Vickie pled
sufficient facts to state a § 1983 claim that the Officers
violated the Equal Protection Clause of the Fourteenth
Amendment. The Equal Protection Clause of the
Fourteenth Amendment provides that “[n]o State shall
... deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV, § 1.
“The Equal Protection Clause directs that persons
similarly situated should be treated alike.” Williams v.
Bramer, 180 F.3d 699, 705 (5th Cir. Tex. 1999) (citing
Plyler v. Doe, 457 U.S. 202, 216 (1982)). “To state a
claim under the Equal Protection Clause, a § 1983
plaintiff must allege either that (a) ‘a state actor
intentionally discriminated against [him] because of
membership in a protected class[,]’ or (b) he has been
‘intentionally treated differently from others similarly
situated and that there is no rational basis for the
difference in treatment.”’ Gibson v. Tex. Dep’t of Ins.–
Div. of Workers’ Comp., 700 F. 3d 227, 238 (5th Cir.

App. 81
2012) (citations omitted). “Purposeful discrimination
requires more than ‘intent as volition or intent as
awareness of consequences’; it involves a
decisionmaker’s undertaking a course of action
“‘because of,” not merely “in spite of,” [the action’s]
adverse effects upon an identifiable group.”’ Iqbal, 556
U.S. at 663.
Vickie maintains that the pleadings establish that
the Officers discriminated against Deanna (1) on the
basis of race, gender, socioeconomic background, and
status as a victim of domestic violence and (2) as a
“class of one.” (Doc. 81, pp. 14, 27-28) The Court will
address each in turn.
1. Race, Gender, Socioeconomic, and
Domestic Violence Victim
Discrimination
The Complaint states that the Officers both
responded to Deanna’s call and conducted their
investigation at Deanna’s residence in a discriminatory
fashion because of Deanna’s race, gender,
socioeconomic background, and status as a victim of
domestic violence.6 (See Doc. 62, pp. 20-23, 25)
6

In adopting the Watson test in Shipp, the Fifth Circuit recognized
that the allegation that domestic violence victims were treated
differently than other crime victims was a route to proving genderbased discrimination, as a disproportionate amount of domestic
violence victims are women. See Shipp v. McMahon, 234 F.3d 907
(5th Cir. 2000), overruled on other grounds, McClendon v. City of
Columbia, 305 F.3d 314 (5th Cir. 2002). There, the argument was
that domestic violence victims were treated differently because
they are women. In addition to the argument that the Officers
participated in gender-based discrimination as evidenced by the

App. 82
Specifically, the Complaint alleges that the Officers
responded to Deanna’s call and arrived at her residence
at a “time considerably in excess of the time in which
Defendants would have responded to a similarly
situated person in a more affluent section of the [City
of Dallas] that did not have a predominately minority
population” or “to a similarly situated non-minority.”
(Id. at 22; see also id. at 21) The Officers’ responded
deficiently “because [they] continually believed this
domestic situation in a less affluent neighborhood was
less deserving of their attention,” which is “not at all
related to any governmental purpose.” (Id. at 21) The
Officers then failed to conduct the type of investigation
that “would have been conducted had [Deanna] not
been a victim of domestic abuse, a minority or a
resident in a high crime area.” (Id. at 22) Additionally,
once at Deanna’s residence, the Officers failed “to
follow the requirements listed in Art. 5.04(a) of the
Code of Criminal Procedure due to [Deanna’s] minority
status.” (Id. at 22)
Accepting the allegations as true and taking the
facts in the most favorable light to Vickie, the
Complaint alleges sufficient factual matter to
demonstrate that the Officers intentionally
discriminated against Deanna on the basis of race,
gender, socioeconomic background, or status as a
victim of domestic violence. Though the Officers

treatment of Deanna as a domestic violence victim, the Complaint
alleges discrimination against domestic violence victims generally,
regardless of gender. As such a group is not a protected class under
the Equal Protection Clause, the Complaint must show that such
discrimination is not rationally related to a government interest.

App. 83
volunteered for the call, they were made aware that, in
her 9-1-1 call, Deanna was screaming for help and that
a “scuffle” could be heard in the background. (Id. at 7)
Additionally, while at Deanna’s residence, the Officers
knew that Deanna had “previously reported claims of
domestic violence and stalking.” (Id. at 8)
Armed with such knowledge and viewing the claims
in a light most favorable to Vickie, it is not an
unreasonable inference that the lengthy response time
and the deficient investigation were due to
discriminatory intent. Here, despite awareness that
Deanna had been screaming for help and that there
was audible evidence of an altercation, the Officers
took over 40 minutes to respond to Deanna’s call.
During those 40 minutes, the Complaint alleges that
the Officers stopped to make personal purchases, to
respond to a residential burglary alarm, and to take
disposition comments from a previous call. (Id. at 7)
This is juxtaposed with Police Chiefs Brown statement
that “critical calls” are responded to within six
minutes.7 (Id. at 12) Additionally, though the Officers
were aware of the nature of Deanna’s call and her
previous reported claims of domestic violence, they did
nothing more than knock on the front door of Deanna’s
residence and attempt to call her cell phone. (Id. at 8)
While it is true, as the Officers assert, that there are
alternative explanations for the Officers’ behavior, they
are not “obvious,” unlike the alternative explanations
in both Twombly and Iqbal. (Doc. 87, pp.7-9); Twombly,
550 U.S. at 567; Iqbal, 556 U.S. at 681. While the
7

This admission provides evidence of disparate treatment between
domestic violence and other types of service requests.

App. 84
Complaint may not establish that the Officers’
discriminatory intent is probable, it is not “beyond a
doubt that [Vickie] cannot prove a plausible set of facts
that support the claim and would justify relief.” Lane
v. Halliburton, 529 F.3d 548, 557 (5th Cir. 2008) (citing
Twombly, 550 U.S. 544).
However, merely showing that discrimination
against women was a motivating factor in the Officers’
response and investigation is not sufficient to sustain
a gender-based Equal Protection claim based on law
enforcement policies, practices, and customs toward
domestic assault and abuse cases in the Fifth Circuit.
See Shipp v. McMahon, 234 F.3d 907, 914 (5th Cir.
2000), overruled on other grounds, McClendon v. City
of Columbia, 305 F.3d 314 (5th Cir. 2002). In addition,
a successful plaintiff must also show (1) “the existence
of a policy, practice, or custom of law enforcement to
provide less protection to victims of domestic assault
than to victims of other assaults” and that “(2) the
plaintiff was injured by the policy, custom, or practice.”
Id. Viewing the facts in a light most favorable to Vickie,
the Court finds sufficient factual matter to infer a
policy, practice, or custom of providing less protection
to female victims of domestic violence. Specifically, the
Court notes that Chief Brown stated that “critical calls”
are responded to within six minutes. (Doc. 62, p. 12)
Additionally, the Complaint sufficiently establishes
that Deanna suffered injury as a result of the policy,
custom, or practice. (Id. at 10-11, 20)
Thus, in alleging that the Officers responded to
Deanna’s call and conducted their investigation in a
discriminatory manner because of Deanna’s race,

App. 85
gender, socioeconomic background, and status as a
victim of domestic violence, Vickie pleads sufficient
factual matter to nudge her equal protection claim
across the line from conceivable to plausible. In sum,
all four bases for equal protection violations survive
dismissal.
2. “Class of One” Claim
Unlike Vickie’s other equal protection claims, Vickie
and the Officers dispute whether or not Vickie has
actually pled a “class of one” claim. Vickie maintains
that the Complaint states a a claim that Deanna was
denied equal protection as a “class of one.” (Doc. 81, pp.
27-31) The Officers argue that Vickie fails to proffer
such a claim in the Complaint. (Doc. 87, p. 10)
The Supreme Court has recognized equal protection
claims for “class of one” victims of discrimination. See
Stotter v. Univ. of Tex. at San Antonio, 508 F.3d 812,
823-24 (5th Cir. 2007); see also Vill. of Willowbrook v.
Olech, 528 U.S. 562, 564 (2000). To establish an equal
protection claim under the “class of one” theory, a
plaintiff must show: (1) disparate treatment of
otherwise like individuals, and (2) an absence of a
rational basis for the treatment. See Stotter, 508 F.3d
at 824.
Having reviewed the Complaint in the light most
favorable to Vickie, the Court finds that Vickie has
failed to properly state a claim that Deanna was denied
equal protection as a “class of one.” While Vickie
correctly identifies that the Federal Rules of Civil
Procedure permit a plaintiff to plead inconsistent
claims in the alternative, the Complaint fails to lay out

App. 86
any such alternative. (Doc. 92, p. 21); see also Fed. R.
Civ. P. 8(d). The first mention of Deanna perhaps
representing a “class of one” arises in Vickie’s
Response. (Doc. 81, pp. 27-31) Although the Response
and Surreply both point the Court to specific
paragraphs wherein Vickie has alleged facts tending to
show that Deanna was treated differently and that it
was wholly irrational to do so, the Complaint clearly
alleges that Deanna was treated differently precisely
because she was a member of one or more of the classes
addressed above—not because she represented a “class
of one.” (See Doc. 81, pp. 27-31; Doc. 92, pp. 21-22)
Although the allegations postulate that the Officers
eventually became aware of Deanna’s identity, the
facts are insufficient to demonstrate discriminatory
treatment against her absent association with a
recognized class. In addition to failing to reference the
“class of one” theory in the pleadings, the facts and
causes alleged do not present “a plain statement of the
claim,” much less one that is “simple, concise, and
direct.” (Doc. 62); see also Fed. R. Civ. P. 8(a), (d). Thus,
the Court is not persuaded that Vickie has given the
Officers “fair notice of what the ... claim is and the
grounds upon which it rests.” Twombly, 550 U.S. at 555
(quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)
(omission in original)).
In short, the Court dismisses Vickie’s “class of one”
claim.8

8

While leave to amend is generally favored, Vickie does not
demonstrate how a fourth round of pleadings will correct the
aforementioned deficiencies because the facts do not show that the
Officers acted in derogation of Deanna’s rights as an entity unto

App. 87
b. State Law Claims
Finally, the Officers request that the Court dismiss
the state law claims because the City of Dallas has
filed a motion to dismiss these claims under section
101.106(e) of the Texas Civil Practice and Remedies
Code. Vickie rightly points out in her Response that
government employees cannot request the dismissal of
a claim filed under this statute. (Doc. 81, p. 29) Texas
Civil Practice and Remedies Code § 101.106(e) specifies
that it is the “motion by the governmental unit” that
dismisses a tort claim against a government employee
brought under the statute; it does not provide the same
opportunity to a governmental employee. See
Hernandez v. City of Lubbock, 253 S.W.3d 750, 753-56
(Tex. App.–Amarillo 2007, no pet.); see also City of
Houston v. Esparza, 369 S.W.3d 238, 247 n.10 (Tex.
App.–Houston [1st Dist.] 2011, pet. filed); Tristan v.
Socorro Indep. Sch. Dist., 902 F. Supp. 2d 870, 875
(W.D. Tex. 2012). The City of Dallas’s Motion to
Dismiss has been granted in a separate order.
Therefore, the Court DENIES as moot the Motion to
Dismiss Vickie’s state tort claims.

herself. (See Doc. 81, pp. 27-28) Indeed, the Complaint alleges
nothing more than that, while at Deanna’s residence, the Officers
knew that she had made previous calls reporting domestic
violence. (Doc. 62, p. 7) The allegations are not sufficient to show
that the Officers sought to deprive Deanna equal protection of the
laws “for reasons of a personal nature unrelated to the [Officers’]
duties.” Kelley v. City of Wake Village, 246 F.App’x 437, 444 (5th
Cir. 2008). Altogether, the discrimination at issue appears to be
based on one or more discrete classes—not some particularized
animus against Deanna herself.

App. 88
IV. Conclusion
For the foregoing reasons, the Court GRANTS the
Officers’ Motion to Dismiss to the extent that it relates
to the Due Process Clause of the Fourteenth
Amendment and to the extent that it relates to a “class
of one” claim under the Equal Protection Clause of the
Fourteenth Amendment, but it DENIES the Officers’
Motion to Dismiss to the extent that it relates to state
tort claims and to the extent that it relates to claims
premised on the basis of race, gender, socioeconomic
background, and status as a victim of domestic violence
under the Equal Protection Clause of the Fourteenth
Amendment.
IT IS SO ORDERED.
Signed this 28th day of October, 2013.
/s/Jorge A. Solis
JORGE A. SOLIS
UNITED STATES DISTRICT JUDGE

App. 89

APPENDIX G
U.S. Const. amend. XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. § 1983. Civil action for deprivation of
rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief

App. 90
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
Fed. R. Civ. P. 56. Summary Judgment
(a) MOTION FOR SUMMARY JUDGMENT OR PARTIAL
SUMMARY JUDGMENT. A party may move for summary
judgment, identifying each claim or defense — or the
part of each claim or defense — on which summary
judgment is sought. The court shall grant summary
judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law. The court
should state on the record the reasons for granting or
denying the motion.
(b) TIME TO FILE A MOTION. Unless a different time is
set by local rule or the court orders otherwise, a party
may file a motion for summary judgment at any time
until 30 days after the close of all discovery.
(c) PROCEDURES.
(1) Supporting Factual Positions. A party
asserting that a fact cannot be or is genuinely
disputed must support the assertion by:
(A) citing to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those made
for purposes of the motion only), admissions,
interrogatory answers, or other materials; or

App. 91
(B) showing that the materials cited do not
establish the absence or presence of a genuine
dispute, or that an adverse party cannot produce
admissible evidence to support the fact.
(2) Objection That a Fact Is Not Supported by
Admissible Evidence. A party may object that the
material cited to support or dispute a fact cannot be
presented in a form that would be admissible in
evidence.
(3) Materials Not Cited. The court need consider
only the cited materials, but it may consider other
materials in the record.
(4) Affidavits or Declarations. An affidavit or
declaration used to support or oppose a motion must
be made on personal knowledge, set out facts that
would be admissible in evidence, and show that the
affiant or declarant is competent to testify on the
matters stated.
(d) WHEN F ACTS A RE U NAVAILABLE TO THE
NONMOVANT. If a nonmovant shows by affidavit or
declaration that, for specified reasons, it cannot
present facts essential to justify its opposition, the
court may:
(1) defer considering the motion or deny it;
(2) allow time to obtain affidavits or declarations
or to take discovery; or
(3) issue any other appropriate order.
(e) FAILING TO PROPERLY SUPPORT OR ADDRESS A FACT.
If a party fails to properly support an assertion of fact

App. 92
or fails to properly address another party’s assertion of
fact as required by Rule 56(c), the court may:
(1) give an opportunity to properly support or
address the fact;
(2) consider the fact undisputed for purposes of
the motion;
(3) grant summary judgment if the motion and
supporting materials — including the facts
considered undisputed — show that the movant is
entitled to it; or
(4) issue any other appropriate order.
(f) JUDGMENT INDEPENDENT OF THE MOTION. After
giving notice and a reasonable time to respond, the
court may:
(1) grant summary judgment for a nonmovant;
(2) grant the motion on grounds not raised by a
party; or
(3) consider summary judgment on its own after
identifying for the parties material facts that may
not be genuinely in dispute.
(g) FAILING TO GRANT ALL THE REQUESTED RELIEF. If
the court does not grant all the relief requested by the
motion, it may enter an order stating any material fact
— including an item of damages or other relief — that
is not genuinely in dispute and treating the fact as
established in the case.
(h) AFFIDAVIT OR DECLARATION SUBMITTED IN BAD
FAITH. If satisfied that an affidavit or declaration

App. 93
under this rule is submitted in bad faith or solely for
delay, the court — after notice and a reasonable time to
respond — may order the submitting party to pay the
other party the reasonable expenses, including
attorney’s fees, it incurred as a result. An offending
party or attorney may also be held in contempt or
subjected to other appropriate sanctions.

